<html>
<title> - [H.A.S.C. No. 113-35]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2014 AND OVERSIGHT OF U.S. NAVAL AND U.S. AIR FORCE ACQUISITION PROGRAMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                                     

                         [H.A.S.C. No. 113-35]



                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2014

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

         SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES HEARING

                                   ON

                    OVERSIGHT OF U.S. NAVAL AND U.S.

                     AIR FORCE ACQUISITION PROGRAMS

                    IN THE FISCAL YEAR 2014 NATIONAL

                  DEFENSE AUTHORIZATION BUDGET REQUEST

                               __________

                              HEARING HELD


                             APRIL 24, 2013

                                     
[GRAPHIC] [TIFF OMITTED] 

                                     





                  U.S. GOVERNMENT PRINTING OFFICE
80-764                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            MIKE McINTYRE, North Carolina
DUNCAN HUNTER, California            JOE COURTNEY, Connecticut
E. SCOTT RIGELL, Virginia            JAMES R. LANGEVIN, Rhode Island
STEVEN M. PALAZZO, Mississippi       RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE COFFMAN, Colorado                   Georgia
JON RUNYAN, New Jersey               COLLEEN W. HANABUSA, Hawaii
KRISTI L. NOEM, South Dakota         DEREK KILMER, Washington
PAUL COOK, California                SCOTT H. PETERS, California
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                         Nicholas Rodman, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Wednesday, April 24, 2013, Oversight of U.S. Naval and U.S. Air 
  Force Acquisition Programs in the Fiscal Year 2014 National 
  Defense Authorization Budget Request...........................     1

Appendix:

Wednesday, April 24, 2013........................................    45
                              ----------                              

                       WEDNESDAY, APRIL 24, 2013
OVERSIGHT OF U.S. NAVAL AND U.S. AIR FORCE ACQUISITION PROGRAMS IN THE 
     FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
McIntyre, Hon. Mike, a Representative from North Carolina, 
  Ranking Member, Subcommittee on Seapower and Projection Forces.     3

                               WITNESSES

Allardice, Lt Gen Robert R., USAF, Air Mobility Command Vice 
  Commander (AMC/CV), U.S. Air Force; and Lt Gen Charles R. 
  Davis, USAF, Military Deputy, Office of the Assistant Secretary 
  of the Air Force for Acquisition, U.S. Air Force...............     7
Stackley, Hon. Sean, Assistant Secretary of the Navy for 
  Research, Development and Acquisition; VADM Allen G. Myers, 
  USN, Deputy Chief Naval Operations for Integration of 
  Capabilities and Resources (N8), U.S. Navy; and LtGen Richard 
  P. Mills, USMC, Deputy Commander for Combat Development and 
  Integration, Marine Corps Combat Development Command, U.S. 
  Marine Corps...................................................     4

                                APPENDIX

Prepared Statements:

    Allardice, Lt Gen Robert R...................................    79
    Davis, Lt Gen Charles R......................................    94
    Forbes, Hon. J. Randy........................................    49
    Stackley, Hon. Sean, joint with VADM Allen G. Myers and LtGen 
      Richard P. Mills...........................................    52

Documents Submitted for the Record:

    Data Tables from Report to Congress on the Annual Long-Range 
      Plan for the Construction of Naval Vessels for Fiscal Year 
      2014, Submitted by Hon. Sean Stackley......................   109
    Estimates of Annual Shipbuilding Costs Under the Navy's 2013 
      Plan, by the Congressional Budget Office...................   115

Witness Responses to Questions Asked During the Hearing:

    Mr. Forbes...................................................   119
    Mr. Johnson..................................................   122
    Mr. Langevin.................................................   120

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................   125
    Mr. Langevin.................................................   125
OVERSIGHT OF U.S. NAVAL AND U.S. AIR FORCE ACQUISITION PROGRAMS IN THE 
     FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                         Washington, DC, Wednesday, April 24, 2013.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. First of all, I want to welcome all of our 
members and our distinguished panel of experts to today's 
hearing that will focus on the Administration's fiscal year 
2014 budget request. In the decade ahead, I believe we will 
increasingly lean on our seapower and projection forces to 
underpin our national security strategy.
    Our naval forces are deployed around the world, protecting 
the world's sea lanes and operating forward to deter conflict. 
Our projection forces are uniquely ready to support a wide 
range of mobility, strike, and strategic deterrence missions 
around the globe.
    While I am pleased at the capabilities provided by our 
forces today, the long-term outlook of our defense posture is 
being challenged. Naval forces embarked on carrier strike 
groups and amphibious readiness groups routinely deploy 7 to 8 
months.
    Because of the Navy's sustained surge, our nuclear aircraft 
carriers are depleting their nuclear reactor propulsion units 
at accelerating rates. Our bomber fleet averages 37 years old, 
and our venerable tanker fleet averages an even older 48 years.
    While we are meeting the minimal requirements of our ever-
retreating national strategy, it is painfully obvious that our 
future readiness is being leveraged to pay for our current 
requirements.
    The most recent example of the Administration's direction 
is the 30-year shipbuilding plan that was partially submitted 
on Monday. The Administration, once again, proposes the early 
retirement of seven cruisers and two amphibious ships in fiscal 
year 2015, well before the end of their service lives.
    With 31 ships being retired over just the next 2 years, we 
are headed towards a fleet size of 270 battle force ships by 
fiscal year 2015. Decline is a choice, and I believe this new 
plan willingly chooses to continue the slow, painful decline of 
robust American seapower.
    The plan also includes a significant increase to the 
overall ship construction budget to accommodate the Ohio class 
ballistic missile submarine replacement. At over $5 billion, 
these strategic investments in our nuclear triad are essential.
    Our main concern, that during the procurement and 
construction of the Ohio class replacement, the shipbuilding 
budget will demand an average of $19 billion per year. To fund 
both this new boat and the battle force it will take, either a 
substantial increase in the shipbuilding account or an effort 
to fund the Ohio class replacement from outside this account.
    I look forward to continuing to work with the Department of 
the Navy to address this funding shortfall. During the Navy 
Posture Hearing earlier this month, military leaders indicated 
that they were pleased at the investment in the ship 
construction accounts and highlighted the dearth of ships in 
construction when they took office.
    To arrest this decline, this Administration embraced the 
plan that includes an aggressive strategy to build a moderately 
capable surface combatant called the Littoral Combat Ship, that 
adds over 50 ships over the term of the plan. But 
unfortunately, the mission modules that are integral to support 
this 20-year seaframe are still in research and development, 
complicating the Navy's ability to respond to basic mine 
countermeasures missions and antisubmarine missions.
    Just as the fleet is shrinking from the retirement and 
procurement of less major surface combatants and amphibious 
ships, we are filling these shortfalls with smaller surface 
combatants and support vessels.
    We need to take steps to arrest the decline of our battle 
force fleet. As to the Air Force projection forces, I am 
pleased that we may be initiating the semblance of a credible 
recapitalization plan.
    With the support of an investment in the KC-46 Tanker 
Program and strategic emphasis on the Long Range Strike Bomber, 
I believe that the Air Force is on the right path with the 
right platforms for our Nation's future.
    I look forward to supporting these continued investments in 
our mobility and projection forces capabilities.
    As to the Marine Corps, I understand the amphibious combat 
vehicle is the Marine Corps' top priority for ground force 
modernization, and the Marines have completed the required 
analysis of
alternatives.
    We need to get this program right for the future of the 
Marine Corps, and I look forward to receiving an update on this 
critical program. I would be remiss if I also did not recognize 
the Navy in providing a credible long-term acquisition strategy 
that uses block buy on multiyear procurements to secure steep 
reductions in overall Naval pricing.
    Not only is this a good strategy for our Nation's 
taxpayers, it provides the long-term surety to our industrial 
base, that will allow them to make critical investments for 
their long-term health.
    My friends, we are at a strategic inflexion point in terms 
of our defense policy. Concurrent with the new strategy being 
contemplated by this Administration, my fear is that the 
overall capabilities of our military will continue to atrophy, 
and our inability to be able to operate forward and project 
power, will embolden regional instability.
    In the end, future defense reductions will be paid for in 
the lives of our service members. I refuse to accept this 
premise and will do everything in my power to arrest further 
decline from modernizing and growing our capabilities.
    Joining us today to discuss the fiscal year 2014 budget 
request, are five distinguished and patriot gentlemen.
    The Honorable Sean Stackley, United States Navy Assistant 
Secretary of the Navy for Research, Development and 
Acquisition.
    Vice Admiral Allen G. Myers, U.S. Navy. He is the Deputy 
Chief of Naval Operations for Integration Capabilities and 
Resources.
    We have Lieutenant General Richard P. Mills, U.S. Marine 
Corps Deputy Commander for Combat Development and Integration.
    We also have Lieutenant General Charles Davis. He is the 
Military Assistant of the Air Force for Acquisition.
    And, Lieutenant General Robert R. Allardice, Vice Commander 
of the Air Mobility Command.
    General, we thank you all for being here, and one thing I 
would like to emphasis at the beginning is, I understand two of 
you are going to make actual opening comments and then respond 
to
questions.
    This is probably, if not the most bipartisan committee, it 
is probably one of the most bipartisan committees in Congress. 
We share a common goal in making sure that we are reaching the 
desired strength that we have for our military. We appreciate 
all of your Services here.
    There is no attempt to embarrass any of you with any 
questions. We understand you are speaking for the Department in 
your respective Services, but it is also our goal to try to 
make sure we are asking the tough questions, so we are putting 
all the facts on the table and moving forward with the kind of 
oversight we need.
    Our members will try to do that today, but in the end, I 
want to make sure I am going to give each of you an 
opportunity. If you have left anything out or felt you need to 
change anything or you need additional time, I am going to give 
it to you, so that you can make sure you get that on the 
record.
    And with that, I want to recognize now my good friend and 
ranking member, Mike McIntyre, from North Carolina, with any 
remarks he might have.
    Mike?
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 49.]

 STATEMENT OF HON. MIKE MCINTYRE, A REPRESENTATIVE FROM NORTH 
    CAROLINA, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. McIntyre. Thank you, Mr. Chairman. And thanks to all of 
you for your service to our country, and thanks to your 
families for their sacrifice in the great work that you do.
    We know this is a critical time for both the Department of 
the Navy and the Department of the Air Force, and with the 
combination of prior cuts and implementation of sequestration, 
the Navy and Air Force are being forced to make tough 
decisions.
    For the Navy, the budget request, $14.1 billion for 
shipbuilding for eight new construction battle force ships. I 
was pleased to see the Navy was able to include a second 
Virginia class submarine in the budget request because we know 
maintaining a 2-ship buy per year Virginia class submarines is 
an important part of the Navy's effort to mitigate the 
submarine shortfall that is predicted in the coming years.
    It is our understanding that the Navy is still trying to 
decide whether the next multiyear procurement for destroyers 
will be a 9-ship or 10-ship buy due to the impacts of 
sequestration. We need to hear from the witnesses as to how 
this subcommittee could be of assistance in obtaining that 
additional ship.
    For the Marine Corps, I know that the development and 
fielding of a new amphibious combat vehicle is one of its top 
priorities, and this budget includes $137 million towards that 
effort.
    Our subcommittee will be interested in hearing how the 
Marine Corps plans to field this important capability while 
also avoiding the cost growth that led to the cancellation of 
the Expeditionary Fighting Vehicle.
    This budget continues the development of two high-priority 
initiatives for the Air Force, the new Long Range Strike Bomber 
and the new aerial refueling tank or aircraft. The current age, 
the average age of the bomber fleet being 37, and the average 
age of the current tanker fleet being 48, we know it is 
critical that these platforms deliver on-time, and also, in an 
affordable manner.
    We are concerned very much about sequestration. We 
certainly hope that the witnesses can explain how these cuts 
are affecting your respective Services so that our subcommittee 
can understand the short-term and the long-term impacts, and 
how we can be of the absolute help we want to be to the Navy, 
to the Marine Corps and to the Air Force.
    God bless all of you all for your commitment and sacrifice, 
and thank you for being with us today.
    Mr. Forbes. Mike, thank you for those comments, and Mr. 
Secretary, I think you are going to lead off for us, and again, 
we thank you and your office for your responsiveness to this 
committee and you have done great work in trying to get us the 
questions we have asked. We appreciate that cooperation, and we 
look forward to your remarks this morning.

  STATEMENT OF HON. SEAN STACKLEY, ASSISTANT SECRETARY OF THE 
 NAVY FOR RESEARCH, DEVELOPMENT AND ACQUISITION; VADM ALLEN G. 
 MYERS, USN, DEPUTY CHIEF NAVAL OPERATIONS FOR INTEGRATION OF 
 CAPABILITIES AND RESOURCES (N8), U.S. NAVY; AND LTGEN RICHARD 
  P. MILLS, USMC, DEPUTY COMMANDER FOR COMBAT DEVELOPMENT AND 
  INTEGRATION, MARINE CORPS COMBAT DEVELOPMENT COMMAND, U.S. 
                          MARINE CORPS

    Secretary Stackley. Thank you, sir. Chairman Forbes, 
Ranking Member McIntyre, and distinguished members of the 
subcommittee.
    Mr. Forbes. Mr. Secretary, could you use that mike closer 
to your mouth. They can be a little sensitive sometimes.
    Secretary Stackley. Yes, sir. Thank you for the opportunity 
to appear before you today, to address the Department of the 
Navy acquisition programs and, with the permission of the 
subcommittee, I propose to provide a brief statement and submit 
a separate formal statement for the record.
    Your Navy and Marine Corps team is this Nation's 
expeditionary force in readiness, a balanced naval, air, and 
ground force forward-deployed, forward-engaged, on the ground 
in Afghanistan; performing maritime security along the world's 
vital sea lanes; missile defense in Mediterranean and Sea of 
Japan; intelligence, surveillance, and reconnaissance where 
needed, as needed; persistence of presence at sea with an 
embarked Marine force ready to move ashore.
    They're conducting antipiracy patrols, global partnership 
stations, humanitarian assistance in a quietly, reliably on 
patrol providing strategic deterrence, and all the while, 
training for the next deployment, the next operation, the next 
crisis, the next contingency.
    The Department of the Navy's 2014 budget request provides 
the resources needed to meet this full range of missions, and 
it provides the investment required to execute tomorrow's 
mission against the future threat.
    But before discussing the 2014 budget request, it is 
important to mark where we are in 2013. The 2013 budget request 
reshaped our shipbuilding, aviation, and tactical vehicle plans 
to reflect the priorities of the new defense strategy.
    And Congress strongly supported that request. In fact, 
funding was increased for additional ships and aircraft, as 
well as for operations and modernization of the in-service 
fleet. Too, the Authorization Act provided multiyear authority 
for submarines, destroyers, and MV-22 [Osprey tiltrotor] 
aircraft and, with that, stability for the industrial base and 
near $5 billion in savings for the taxpayer.
    However, sequestration more than offset these gains, and we 
are about $11 billion out of balance across operations, 
maintenance and investment. And given the method of applying 
sequestration and our limited ability to reprogram funds to 
resolve fiscal year 2013 issues, we need to identify 
workarounds to each line of the budget in order to execute the 
planned program as best as possible.
    In the end, there will be impacts. Reductions to operations 
and maintenance funding is directly impacting our near-term 
forward presence and our depot maintenance and training, which 
will affect future operational rotations, and the readiness of 
our nondeployed forces will be reduced.
    In our investment accounts which provide for future 
readiness, we are weighing alternatives to mitigate quantity 
reductions, scheduled delays and the cost impacts due to each 
of our ship, aircraft, and weapons systems programs.
    We will work with your staff as these details unfold, 
particularly as they affect the 2014 budget deliberations.
    The 2014 budget request balances capability and readiness 
in support of the defense strategy while maintaining focus on 
affordability and the industrial base. Our shipbuilding program 
is stable as we continue to build towards a 300-ship force as 
defined by the Navy's force structure assessment.
    Submarine, destroyer, Littoral Combat Ship, and mobile 
landing platform construction performance is strong, and these 
program savings have been reinvested to uphold our shipbuilding 
rates despite downward pressure on the budget.
    In fact, we increased construction in the near term, with 
the addition of a second Virginia class submarine in 2014 
towards that program's 10-built multiyear, and we will work 
closely with your subcommittee to determine how to best 
overcome the impact of sequestration to likewise award the 
additional tenth DDG 51 [Arleigh Burke class guided missile 
destroyer] as part of that program's multiyear.
    Two years ago, we reported cost growth on the lead ship of 
the Ford class aircraft carrier program, stemming from 
development of new systems and delays in design and material, 
all impacting
production.
    Our efforts to improve on this performance has stemmed cost 
growth on the lead ship but not reversed it. Accordingly, we 
are requesting cost cap relief and funding to complete CVN 78 
[USS Gerald R. Ford supercarrier] in accordance with our 
previously reported estimate.
    We are attacking these issues on the next carrier, CVN 79 
[Ford class supercarrier USS John F. Kennedy] and are working 
with the shipbuilder to replan materiel ordering, work flow on 
fellow ships, and needed facility improvements in order to 
reduce costs of our future carriers.
    Performance in amphibious ship construction is much 
improved. LHA 6 [Landing Helicopter Assault] lessons are 
rolling into LHA 7 construction, and the recently delivered LPD 
23 [amphibious transport dock ship] and LPD 24 are entering the 
fleet at high levels of quality and completion, and we look for 
this trend to continue as we complete the remaining ships in 
that class.
    Looking ahead, we are conducting design studies and 
analysis of alternatives for future amphibious and auxiliary 
ships. LHA 8, the future LX(R) to replace the LSD [Landing 
Ship, Dock] 41/49 class and the future oiler T-AO(X), as we 
consider the workload at our shipyards and the vendor base, it 
is critical that we press forward with these ships' design in 
order to find opportunities to pool work forward affordably as 
necessary to sustain this critical sector of our industrial 
base.
    I would like to briefly address the Ohio replacement 
program. Requirements are stable and development and early 
design are on schedule to support procurement in 2021. 
Affordability of the Navy's shipbuilding program during the 
period of the SSBN construction remains a priority however.
    And while design for affordability is a central tenet of 
our Ohio replacement strategy, meeting our cost objectives will 
not alone bring our shipbuilding, topline, within reach during 
that program.
    Like our shipbuilding program, the stability in aviation 
programs is provided by mature programs being procured under 
multiyear contracts, the Super Hornet, the MH-60 helicopter, 
and the MV-22 Osprey. To this list, we are requesting authority 
for multiyear procurement of the E-2D [Advanced Hawkeye early 
warning and control] aircraft commencing in 2014.
    When the leading edge of modernization of our maritime 
patrol fleet, our ability to leverage commercial production of 
the 737 aircraft for the P-8A [Poseidon multimission maritime 
aircraft] has reduced costs and risks for this aircraft which 
is preparing for its first deployment later this year.
    Likewise, the Navy's MQ-4 Triton aircraft, which is making 
progress towards its first flight later this spring, leverages 
Global Hawk development to provide high-altitude, long-
endurance unmanned capability to complement the P-8A.
    The third leg of our balanced new war ground force, Marine 
Corps tactical vehicles, is at the front-end of much needed 
recapitalization. We brief this committee on our strategy to 
replace the HMMWV [High-Mobility Multipurpose Wheeled Vehicle] 
with a more capable, survivable, joint, light, tactical vehicle 
being procured jointly with the Army.
    And with the termination of the expeditionary fighting 
vehicle, to replace the aging amphibious assault vehicle, with 
a more capable, more survivable, amphibious combat vehicle that 
meets thresholds set for affordability.
    The JLTV [Joint Light Tactical Vehicle] program remains on 
track with the 2014 budget request, continuing development and 
support of procurement commencing in 2015.
    We are continuing to review, with the Army, the impacts of 
sequestration on that schedule and we will advise the results 
upon completion of this review.
    The amphibious combat vehicle is as the commandant stated 
in testimony, top Marine Corps priority. In order to ensure we 
get this right, we are conducting a combined requirements 
definition feasibility study spanning the best of Government 
and industry requirements, design and cost experts.
    Our intent is to bring the best talent and best information 
together to build on the tremendous body of knowledge we 
possess across all of our vehicle programs and determine how to 
deliver the capability needed by the Marine Corps with high 
confidence and the affordability of the defined requirements.
    We have engaged your staff on the front end of this process 
and will remain engaged as we press to future milestone 
decisions.
    Mr. Chairman, thank you for the opportunity to appear 
before you today. I look forward to answering your questions.
    [The joint prepared statement of Secretary Stackley, 
Admiral Myers, and General Mills can be found in the Appendix 
on page 52.]
    Mr. Forbes. Mr. Secretary, thank you.
    And General, I understand that you are going to make our 
other presentation, and we appreciate your service to our 
country, and thank you for taking time to help us this morning, 
and I turn the floor over to you.

  STATEMENT OF LT GEN ROBERT R. ALLARDICE, USAF, AIR MOBILITY 
  COMMAND VICE COMMANDER (AMC/CV), U.S. AIR FORCE; AND LT GEN 
    CHARLES R. DAVIS, USAF, MILITARY DEPUTY, OFFICE OF THE 
ASSISTANT SECRETARY OF THE AIR FORCE FOR ACQUISITION, U.S. AIR 
                             FORCE

    General Allardice. Thank you. Chairman Forbes, Ranking 
Member McIntyre, and distinguished members of the subcommittee, 
with your permission, sir, I will make some brief opening 
comments and ask that our full written statements be placed in 
the record.
    Sir, thank you for your steadfast support of our airmen as 
they go about the Nation's work around the world. General Davis 
and I are honored to be joined today by the distinguished 
members of this panel.
    We recognize that we are at our finest when we operate as a 
true joint team and our willingness to work together towards 
solutions to future challenges is absolutely critical.
    It is humbling to be here representing the 134,000 airmen 
from the Active Duty, Air Force Reserve and the Air National 
Guard today. Included in that number is nearly 10,000 dedicated 
civilians without whom we could not accomplish our mission.
    When combined with the commercial industry and industry 
partners, these teams round out our national air transportation 
capability. We are grateful for the support that this committee 
provides our entire team as we execute our global mission every 
day.
    The remarkable thing about our air mobility forces, our 
fellow citizens don't often hear about what they do. We go 
about quietly accomplishing our mission behind the scenes 
without the Nation understanding how dependent they are on 
rapid power projection.
    Rapid global ability gives us strategic options that no 
other nation in the world enjoys today. We have seen this play 
out time and again across the full spectrum of operations from 
humanitarian to combat.
    Our fellow U.S. citizens in the Northeast saw this in play 
last fall when a total force team transported utility trucks 
from California to an Air Reserve base outside of Boston, where 
they were desperately needed in the aftermath of the Superstorm 
Sandy.
    Halfway around the world, the continuous bomber presence in 
the Pacific, which has proven invaluable in expressing this 
Nation's will is impossible to happen without the support of 
the air refueling capability that your mobility airmen provide.
    We work very closely with our combatant command, the United 
States Transportation Command to ensure that we are ready to 
provide forces that meet geographic combatant commander 
requirements.
    Although we inform how those requirements are derived, we 
ultimately don't establish them. The fiscal year 2013 NDAA 
[National Defense Authorization Act] directed a mobility 
capabilities and requirement study, and we fully support that 
endeavor.
    We support the President's fiscal year 2014 budget request. 
This budget fully funds the Air Force's number 1 acquisition 
program, the KC-46A. We are excited about the future of this 
program as it remains on time and on budget.
    This summer when the assembly of the first aircraft is 
scheduled to begin, we will be another step along the path 
replacing the
KC-135 [Stratotanker aerial refueling aircraft] fleet which you 
have indicated, Mr. Chairman, as 54 years old at this time.
    The fiscal year 2014 request includes funding for the final 
11 kits to convert our C-5A [Galaxy strategic airlifter] into 
modern C-5Ms [Super Galaxy], resulting in a final fleet of 52 
C-5Ms. The 10
C-5Ms we currently have supporting our global engagement are
performing absolutely magnificently, and they are a true force
multiplier.
    We also to continue to recapitalize the C-130 [Hercules 
tactical airlifter] fleet, funding six additional C-130Js, and 
perhaps, most importantly, the fiscal year 2014 request 
provides a path forward to the readiness challenges we are 
facing as we absorb sequestration into our fiscal year 2013 
flying hours and weapons systems sustainment.
    Our airmen have responded to sequestration, as they always 
do, with dedication and innovation. We are doing some of the 
easy commonsense things like giving back Blackberries and 
turning in staff cars.
    We are also having to cut our own staffs, and now we are 
getting down to the absolute bone of readiness and 
sustainability.
    Last year at this time, we were before you with a request 
to significantly adjust our force structure. We wanted to thank 
the committee for your willingness to work with the Air Force, 
and believe, that the total force proposal included in the 
fiscal year 2013 NDAA showed our willingness to listen to every 
stakeholder in the air mobility family.
    We know these changes aren't just something we talk about 
here. They affect communities that support our airmen, and they 
affect our airmen themselves.
    Although today's focus will be on the tools we use, it is 
our airmen that power all these tools. They say goodbye to 
their families and always find a way to get others to the next 
day.
    Whether it is a combat air drop in Afghanistan, 
humanitarian food and water deliveries in Haiti, or holding the 
hand of one of our injured soldiers from the battlefield during 
an air medical evacuation flight, your air mobility airmen 
always answer the Nation's call.
    Again, Mr. Chairman, we thank you for the opportunity to 
appear before you today, and we look forward to your questions.
    [The prepared statement of General Allardice can be found 
in the Appendix on page 79.]
    [The prepared statement of General Davis can be found in 
the Appendix on page 94.]
    Mr. Forbes. General, thank you. And to all of you, we 
appreciate you being here. The questions that we are going to 
ask you, we need very much to do the oversight that we have to 
do and to prepare the NDAA markup that is coming our way.
    I am going to ask just an initial question or so to lay a 
foundation of where we are going, then I am going to defer most 
of my questions until the end of questions, and we just need to 
be able to do the kind of hearing that we need to do to make 
sure we got the record necessary for that markup.
    You have got tremendous expertise on this panel, and I am 
looking forward to their questions as we go forward.
    This is not an examination for any of you so feel free if 
you need to talk to your staffs or coordinate with one another 
if I am asking the wrong person the question, please someone 
else chime in. And also, if the question is unfair. Just tell 
me that, and I will try to rephrase it.
    And what I want to start with is, kind of a take-off where 
the general just left us. We talked about all the cuts that are 
taking place now with Blackberries and staff and everything 
that is there, but I want to put sequestration on the shelf for 
just a moment.
    And I want to look at the fact that, according to our 
numbers and everything our staff can show before sequestration, 
we had about $800 billion of cuts the Administration has made 
over the last 4 years to our projected 10-year spending.
    Admiral, are our figures right, is that the right figure 
that took place before sequestration? Was it a cut of about 
$800 billion over the last 4 years in projected figure and, if 
not, what is the correct figure?
    Admiral Myers. Chairman, I think you are referring to the 
PB 12 [President's Budget 2012] efficiencies that was under 
Secretary Gates, and that was the $487 billion----
    Mr. Forbes. But according to our staff, the actual cuts 
that we have had over projected spending for the next 10 years, 
that the Department of Defense has had, has been $800 billion 
in that
4-year period of time.
    What is the total amount of cuts that were taken prior to 
sequestration, over a projected reduction in spending, that 
would take place over the next 10-year period of time. Do you 
know that figure or can you get that figure for us?
    Admiral Myers. That was part of the PB 12 initiative and 
submission and for the Navy that represented $48 billion.
    Mr. Forbes. But for the whole Department of Defense, 
because I am going to ask everybody that question, do you any 
of you know what that figure--and this is an open book then, 
$800 billion is what our staff has come up with. That is what 
HASC [House Armed Services Committee] says it is, do any of you 
know what that figure actually was before sequestration?
    And so, let me just go down the line then.
    Admiral, what do you think that figure was?
    Admiral Myers. The PB 12 submission, we were on record 
talking about $487 billion.
    Mr. Forbes. So you think that the total amount of cuts that 
the Administration has taken to national defense reduction and 
spending has been $487 billion?
    Admiral Myers. That was the Department of Defense number.
    Mr. Forbes. Okay. Mr. Secretary.
    Secretary Stackley. Yes, sir. The $487 that Admiral Myers 
cited there is also an initiative to identify efficiencies 
within our budget anticipating further pressure on the topline 
of about $100 billion, but with the intention of create those 
efficiencies and plow them back into investments.
    Mr. Forbes. But as you and I both know, because that is 
what the Secretary said when he had his press conference, but 
they didn't go back into reinvestment, did they? Didn't they 
come out----
    Secretary Stackley. Over time, they got eclipsed by the 
$487, and then subsequently, sequestration.
    Mr. Forbes. So the total figure before sequestration that 
you believe it was would have been----
    Secretary Stackley. Four eighty-seven, and I really want to 
come back to you on the record to----
    [The information referred to can be found in the Appendix 
on page 119.]
    Mr. Forbes. Okay.
    Secretary Stackley [continuing]. Verify that number.
    Mr. Forbes. General, what does the Marine Corps think it 
was?
    General Mills. I am going to take that question for the 
record.
    [The information referred to can be found in the Appendix 
on page 119.]
    Mr. Forbes. Okay. Either general for the Air Force?
    General Davis. Sir let me--the $487 figure is the one we 
have been working with. I do know also that, as Secretary 
Stackley mentioned, the Air Force went through its own drill as 
well with a $30 billion efficiency wedge across the FYDP 
[Future Years Defense Program] that we had to go find, so we 
need to get it for the record, but I have no doubt that there 
was other things that may have added up to get to that.
    [The information referred to can be found in the Appendix 
on page 120.]
    General Allardice. Sir----
    Mr. Forbes. Pardon me?
    General Allardice. I will have to take it for the record.
    [The information referred to can be found in the Appendix 
on page 119.]
    Mr. Forbes. What I would love for you to do is have your 
staffs work with our staffs so we finally get that figure, and 
one of the things that concerns me is, right now, we don't even 
know what the figure is.
    And that ought to be frightening to us, and the second 
thing, I am going down the line on you, too. Admiral, do you 
have any knowledge that of that $487 or $587, or if it is $800 
billion as we think it was, during any of that time, did the 
Navy ever say, ``Too many cuts, we shouldn't be taking this,'' 
to your knowledge?
    Before sequestration?
    Admiral Myers. I think the Navy was on record when we 
submitted the PB 12, reflecting exactly where those cuts were 
coming from and where they were taken and the pressure it was 
putting on the Department of the Navy.
    And part of that pressure was reflected in the shipbuilding 
plan where we intended to retire the seven cruisers and the two 
LSDs. So I think the that Navy was very forthright in showing 
where the pain was.
    Mr. Forbes. Did you submit any statements that you know of 
or is there any statement--and I don't expect you to have that 
information now, but I would like for you to get that back to 
us because I have sat through a lot of hearings, and I never 
heard the Navy make those comments.
    And I could have missed them, but if you would get that 
back for me, I would just love to have that in my hand of where 
they objected.
    [The information referred to can be found in the Appendix 
on page 119.]
    Mr. Forbes. Mr. Secretary, do you recall the Navy having 
objected on that $487 or the $800 billion, the total figure, 
whatever it comes down, anything other than sequestration that 
the Navy ever said, ``This is too much. We shouldn't have these 
cuts.''
Publicly.
    Secretary Stackley. Publicly. Honestly, sir, what we do is 
we take our requirements, we take the budget and we balance, 
and when our requirements and the budget are out of balance, 
what we do is inform the system of what the impacts are and 
what the risk is.
    Mr. Forbes. Did you ever know that the Navy ever informed 
the system of what those impacts would be, outside of 
sequestration, because again, as I have sat through hearing 
after hearing, we have asked that same question.
    And what we were always told was this, ``These are 
acceptable risks. We are okay with these cuts.''
    Do you recall that time when the Navy ever said, ``Too 
much. We shouldn't have these cuts.''
    Secretary Stackley. I can't cite a point where the Navy 
said, ``This breaks us.''
    Mr. Forbes. Would you do as I asked the admiral and try to 
find that and come back and let us know if there are any such 
statements that you can put your hand on?
    Secretary Stackley. Yes, sir.
    Mr. Forbes. Good. General, Marine Corps, same thing.
    General Mills. Sir, I would say that, in various statements 
before the various congressional committees, the Marine Corps, 
over the past couple of years, has been clear that the 
reduction in budget was going to affect our manpower numbers, 
for instance. That is----
    Mr. Forbes. But did they not say, ``These are acceptable 
risks, we can take them.''
    General Mills. As far as I know, yes, sir.
    Mr. Forbes. And if you--if I have missed any, General, if 
you would get back to me on any statements outside of the 
sequestration, of the cuts the Administration has. When you 
come back with that final number, let me know where the Marine 
Corps said, ``This is too much.''
    General Mills. Yes, sir.
    Mr. Forbes. And, General Davis and Allardice, either one.
    General Davis. Sir, I do think there was statements made in 
the previous posture hearings that our Chief and Secretary said 
that that presents risks.
    Mr. Forbes. Before the sequestration?
    General Davis. Yes, sir, on the previous budget, and I will 
caveat that with, as we are looking at it now, if we get the 
ability to take the force structure in the areas where we felt 
we could take the risks, much of that did not materialize and 
was reversed, and so that created a new and unique situation 
for the Air Force.
    The one thing I will say, having work acquisition programs, 
we have some flexibility to try to cover capabilities when we 
know what a cut is. And I will just add for the record, as we 
look in the outyears, the uncertainty of what 2015 and 2016 and 
beyond looks like, probably creates a much greater risk than 
having a known number.
    Mr. Forbes. And granted the unknown is always there, but at 
some point in time, the sheer numbers, and we will talk about 
in just a second, create a problem because that means we turn 
in Blackberries and we turn in staff, and we do all those 
kinds----
    General, anything that you remember the Air Force, outside 
of sequestration, of those cuts, when we ultimately determine 
what the number is?
    General Allardice. No sir. To the best of my knowledge, we 
articulate it in terms of risk and how much risks we are 
incurring but----
    Mr. Forbes. And let me just tell y'all, every hearing I sat 
through, here is what I was told, ``It is acceptable risk.'' No 
one ever told us, ``No, no. This is hitting in the wrong----''
    Now here is why I want to ask this, and I am going to 
finish with this question and then go to somebody else and come 
back with you.
    As I look at the shipbuilding plan that we are talking 
about now, one, we have reduced the number of ships that we 
have, overall, and a lot of those ships were 2038 before we 
actually see the ships go into our fleet.
    Mr. Secretary or Admiral, you both know, we live by our 
accountants, you live by your accountants, and the 
Congressional Budget Office is who we have to rely on a lot of 
times to do our analysis.
    Regardless of whether we take the Congressional Budget 
Office or we take your figures, over the life expectancy of 
this shipbuilding plan, if we take your figures, we are looking 
at about $16.8 billion average shipbuilding costs, and that 
doesn't count the refueling. If you add that in, which normally 
comes out of the shipbuilding account, I think, that is about 
$18 billion to $19 billion. Is that a fair statement?
    Secretary Stackley. That is correct, sir.
    Mr. Forbes. CBO [Congressional Budget Office], of course, 
would differ with your numbers. They would say about $22 
billion, but regardless, let's take your figure.
    The average amount that we have had for shipbuilding in our 
budget, for the last 30 years, and there is no big spikes in 
this. As you know, it has been less $15 billion.
    My question for both of you in making these assumptions, 
can you present to me any evidence at all, a scintilla of 
evidence, that would suggest that we will have those increases 
in budgets, as we move down the road.
    In other words, if you have been getting less than $15 
billion for 30 years, if our curve lines on cuts that y'all 
just talked about are heading down like this, and if our 
shipbuilding plan is going to depend on us having a huge spike-
up in dollars that come in the shipbuilding plan. And that is 
what we are basing it on.
    Give me the evidence that would suggest to you that we will 
have any additional dollars at all from a fiscal point of view, 
from Congress, to make the shipbuilding plan work.
    Secretary Stackley. Sir, let me break this down in a couple 
of parts.
    First, the way we outline the long range shipbuilding plan, 
we break it up into phases or periods. We talk about the near 
term, mid term and long term. And clearly, when you get out to 
the mid term and long term, those projections are--they get 
more ambiguous because we haven't defined, exactly, what those 
platforms will be and the capabilities.
    So we don't place a lot of fidelity on the long term. The 
near term, we believe we have a lot of fidelity in the FYDP 
plus right beyond the FYDP, and so, in terms of our budget 
projections in the FYDP what we see today, we think that is 
solid, sequestration aside.
    The most significant issue in that plan, which I touched on 
in my opening statement regards the impact of recapitalizing 
our strategic deterrence capability. And clearly--clearly that 
program which in then-year dollars when you consider the R&D 
[Research and Development] investment and the procurement 
dollars, we are talking about $100 million, roughly, over about 
a 12- to 15-year
period.
    That dominates the affordability discussion during that 
period, and it doesn't place a lot of weight, overall, on the 
30-year period. So that is the most significant--most 
daunting--challenge that we are staring at in terms of our 
shipbuilding program.
    It is our--as I have stated, while we are focused on 
affordability, we have stabilized the requirements. We are 
making the progress we need to make today. All of our efforts 
to improve affordability of that boat and that programs will 
not be sufficient to bring our shipbuilding requirement during 
that period down to within our historical budget.
    So I cannot point towards evidence. I would have to point 
back to the build-up of the 600 ship Navy, during the 80s, when 
we last saw those levels of shipbuilding investment.
    Mr. Forbes. So then, Mr. Secretary--and I appreciate your 
candor in this and before I go to Mr. Courtney, I just want to 
make clear that, while we do not have a lot of confidence in 
the long range projections of our fiscal forecasting, of doing 
that.
    That fiscal forecasting is what will determine whether we 
get the number of ships we need in the Navy. So if we don't 
have a lot of credibility in that, we also don't have a lot of 
credibility that we are going to get that number of ships. 
Fair?
    Secretary Stackley. Yes, sir.
    Mr. Forbes. Can't get the ships unless you get the dollars.
    Secretary Stackley. Yes, sir. We have the near term, the 
mid term, which is where the high replacement takes place----
    Mr. Forbes. There is a chart, and again, I know you have 
probably seen it, this is a CBO chart, but when we are talking 
about those spike-ups in spending, the spike-ups come after the 
Administration leaves office essentially for most of these.
    Secretary Stackley. Yes, sir.
    Mr. Forbes. So what we are saying is to make these 
projections, we are talking about a reality, we are going to 
have a significant turnaround in the dollars that will have to 
go into ship construction and shipbuilding. Fair?
    Secretary Stackley. We need a steady increase, and we have 
to separately or distinctly, address the cost impact associated 
with recapitalizing----
    Mr. Forbes. But yet, what we have seen is a constant 
reduction that has taken place in our overall spending for--
that is of the last 4 years.
    Secretary Stackley. Not in shipbuilding. You can't relate 
that----
    Mr. Forbes. We haven't seen an increase, have we?
    Secretary Stackley. In the last 4 to 5 years, there has 
been an overall increase to our shipbuilding investments.
    Mr. Forbes. Okay. I will come back to that.
    Mr. Courtney, I would like to recognize you for 5.
    Mr. Courtney. Thank you, Mr. Chairman. And thank you to all 
of the witnesses for being here.
    Before I begin, I would actually like to step back for a 
moment and just recognize one of our staff who is leaving us 
after today's hearing. Lieutenant Commander Phil MacNaughton 
who is sitting behind me and has been with this staff for, I 
think around 5 years or so, has provided amazing advice and 
expertise to all of us because his lead has been on the 
Seapower Committee.
    He is leaving to serve his country. He is heading to the 
Middle East and, you know, which just shows what kind of person 
he is in terms of his commitment to public service.
    As a staff member, he is probably one of the few guys who 
has actually piloted some of us in terms of our trips to 
various places, which is about as good as it gets, and again, I 
would just ask my colleagues to recognize Phil's great work 
that he has done for the committee and wish him safe travels 
and safe work as he, again, steps up his commitment and 
sacrifice for our country.
    [Applause.]
    Thank you. Mr. Secretary, again, I just wanted to maybe 
sort of bring some of the discussion down to some of the, you 
know, nitty-gritty of the last year or so, again, 
congratulations to both of you and Admiral Myers, and all of 
the witnesses for sort of trying to get through this incredibly 
tumultuous budget environment where, I mean, literally, from 
day-to-day it has been hard to predict what this place was 
going to do.
    And again, this committee, I think, subcommittee, certainly 
tried to work with you last year, particularly, with the DDG 
and the Virginia class language that came out in the Defense 
Authorization Bill, which again, tried to provide some 
flexibility for the block contracts that, again, are very 
close.
    Can you give us an update in terms of where you see the 
Virginia class block contract negotiations and, you know, maybe 
what we can expect in terms of, you know, some type of 
announcement or agreement?
    Secretary Stackley. Well first, sir, I make it a point to 
not discuss negotiations, particularly at a public hearing. 
But, you know, the program is building on success, so the 
nature of the negotiations is twofold.
    One is, how do we continue to achieve the savings that 
Virginia has accomplished, literally, through the series of 
block buys going into this multiyear, in order to hit the full 
savings that we reported to Congress, and I have no doubt that 
we are going to get there.
    And we are going to get there in a timely manner. One of 
the challenges that we have, it is sequestration related, was, 
we did lose some advance procurement funding, which is in a 
separate line, that we are working with the shipbuilder to 
figure out how do we compensate for that loss of AEP because it 
is critical to our schedules, and our schedule execution in the 
multiyear is critical to hitting our savings.
    So that is a detail that we are working. I have no doubt 
that we will pull through that, but there will be some dollars 
that need to be backfilled in 2014, that we will discuss with 
your staff in that regard, and I think they can anticipate that 
coming.
    So the bottom line is, you know, we are going to plow 
through the details, to get to the 10-boat multiyear. There is 
some repair work to do as a result of sequestration, and we are 
going to work closely with the shipbuilder to minimize the 
impact of that speed bump on the execution.
    Mr. Courtney. Well, again, and I know you well, I mean, 
just certainly keep us informed about where the problem is. I 
mean, Majority Leader Reid and Senator Schumer place were both 
on the floor talking about trying to come up with a package to 
mitigate sequestration.
    So, it seems like there some stirring go around, and 
frankly, the more we can get examples of the harm that it is 
causing to, again, a very promising development in terms of 
getting an affordable contract, that just adds fuel to the 
argument about why, you know, we need to come together in this 
place and fix this.
    The other question I just wanted to ask, and again, I know 
a lot of other members are bursting here, is LCS [Littoral 
Combat Ship], you know, obviously, if you look at the 
shipbuilding plan, that is a big piece of where the numbers 
are.
    And I just wondered if you could give us a sort of update, 
in terms of, and obviously there are press reports swirling 
around this, and any information you can share with us this 
morning, I would appreciate.
    Secretary Stackley. Yes, sir. And I will probably split 
part of this with Admiral Myers. Let me talk first about the 
shipbuilding side and have Admiral Myers discuss the 
operational side.
    The shipbuilding, as I discussed in my opening statement, 
the construction is going well. We signed up for the block buy. 
We are midway through the block buy. We are seeing performance 
at both shipyards within our budget projections.
    We are using delivery schedules on that program to balance 
with costs. In other words, we are not going to put a lot of 
pressure on delivery schedule if it creates any cost challenges 
on the program, but overall, between both the LCS 1 version and 
the LCS 2 version, we are seeing a steady rate of improvement 
in terms of cost performance, operating within our budget, and 
again, that budget was sized to achieve the $2.9 billion 
savings across the 20 ships of the block buy.
    So that part of the program is stable. Again, there is a 
sequestration impact that we have got to work through. Every 
line item was hit by sequestration. So in the case of LCS 
execution, sequestration has added risks on the budget side, 
because we had to pull money out of everywhere we could without 
impacting the overall program, but when you do that, you add 
risks, and some of that we might be needing to come back to you 
all to address backfilling.
    The mission module side is in development, and we have 
three mission modules in development. The first one that is 
going forward, its initial operational capability is the mine 
countermeasure mission module, and that is scheduled for its 
IOC [Initial Operational Capability] in 2014.
    The elements of the mine countermeasure mission module are 
each doing well. The remote minehunting vehicle, which is 
central to the mission module, went through the reliability 
growth program. It is far exceeding what the targets were for 
reliability.
    The sensors that are associated with that mission package 
are performing in accordance with their requirements with one 
exception where we are at 90 percent of the threshold trying to 
get the rest of way there.
    And then we have a neutralizing system that is meeting its 
requirement in testing, and we are trying to expand that to 
address other parts of the water column.
    The bottom line to all that is, the mine countermeasure 
mission package is moving smartly through its development 
schedule; however, IOC in 2014 is now at risk because of 
sequestration in 2013, so the reduction in the Research and 
Development funds to complete that development and testing, 
might bump that IOC.
    We are trying to hold onto it, but I can't give you 
confidence when you take that much of the funding away in the 
year of execution prior to ROC [Required Operational 
Capability] that we can gracefully recover.
    So that is at risk measured in months, but we see that 
getting across the finish line in the course of 2014 or early 
2015. The ships and mission packages are timed well in terms of 
the mix delivering to the fleet, and I think I will turn it 
over at this point, and have Admiral Myers address the 
operational side.
    Admiral Myers. Thank you for the question. The--we are 
pleased with our LCS, and just to give you a kind of a rundown 
on where we are with the ships. The Freedom, the Independence, 
LCS 2, and the Forth Worth, they are are all conducting either 
testing, maintenance or routine crew proficiency training 
throughout 2012.
    Freedom operated off the coast of Southern California 
throughout that year, and basically, got herself ready for her 
deployment to Singapore, and I will talk about that in just a 
second, what we hope to gain from that.
    The Independence, we have tested the sea frame and the MCM 
[Mine Countermeasure Module] mission package requirements, and 
she sailed around from the East Coast and is now homeported in 
San Diego.
    The Forth Worth, that is the LCS 3, she has been placed in 
commission after successful completion of the builders and 
acceptance trials and is currently homeported in San Diego as 
well, and she will be the combat systems ship qualification 
trials best ship.
    The PCU [Pre-Commissioning Unit] Coronado, LCS 4, continues 
training in preparation for her mid-2013 planned delivery to 
the Navy.
    Now, in terms of Freedom, her arrival at Singapore 
represents the beginning of a proof-of-concept deployment. This 
is going to demonstrate LCS capabilities that are going to 
allow us to assess crew rotation and our maintenance plans.
    The Freedom will conduct maritime security operations, 
she'll participate in international exhibitions and exercises 
to highlight the U.S. strategic intent in the Southeast Asia 
region. This will also help to reassure our partners, our 
bilateral and multilateral partners, of our commitment in our 
pivot to the Asia-Pacific region.
    The Navy is going to get valuable insight into the unique 
capabilities of LCS and what this ship is going to bring to the 
fleet, into their joint military operations and, based on this 
deployment and insights from the proof of concepts that we are 
going to gain from this 8-month deployment, we are going to 
take that and roll that into our lessons learned, and also, 
continue with the testing and the certification of the Freedom 
and the rest of the LCS class in the Navy.
    Like all first of class ships, we continue to assess the 
ships' performance. We implement lessons learned, and we make 
corrections where necessary, so we are very pleased and happy 
to talk about the mission packages separately if you want me to 
do that.
    Mr. Forbes. Mr. Courtney, thank you for your questions and 
your expertise in this area. And thank you for recognizing Phil 
and his good service to our committee and to our country.
    I would now like to recognize the Chairman of the Readiness 
Subcommittee, an expert on these matters, Congressman Wittman.
    Mr. Wittman. Thank you, Mr. Chairman and Secretary 
Stackley, and Vice Admiral Myers, Lieutenant General Mills, 
Lieutenant General Davis and Lieutenant General Allardice, 
thank you all so much for joining us today. We appreciate your 
service to our Nation and what you do for our sailors, for our 
marines, and for our airmen. We deeply appreciate that.
    I will begin with you, General Mills. You heard both the 
Chairman and Secretary Stackley mention the amphibious combat 
vehicle. I wanted to get your focus on where are we with the 
ACV [Amphibious Combat Vehicle].
    I wanted to get your perspective, too, on why does the 
Nation need to invest in the ACV, especially based on the 
austere times that we face.
    Also, how is the Marine Corps going to be able to purchase 
both the joint light tactical vehicle and the amphibious combat 
vehicle, again, facing these budget challenges.
    And can you tell me, too, specifically about the target 
date for the IOC, for the ACV? I am very concerned in that 
looking at the past experience with the EFV [Expeditionary 
Fighting Vehicle] and the timeframe that was well, expired 
through that process, and with it taking nearly 15 years with 
an old amphibious assault vehicle with the AAV [Assault 
Amphibious Vehicle] there, timing this with this, I think is 
critical.
    So if you can give us your perspective on those elements of 
the ACV, that would be great.
    General Mills. Sir, thank you for that question. Thank you 
for the support that you provide the Marines, and the Marines 
at Quantico, in particular, sir, I appreciate it very much.
    I will divide the question up into a couple of parts and I 
would ask Secretary Stackley if he would like to get in on the 
actual procurement procedure. I think both the JLTV and the ACV 
are success stories.
    I will start with JLTV and that we have partnered with the 
Army in developing a vehicle which meets both of our needs, and 
both of us have compromised to a bit, but at the end, that 
produced a vehicle that we can afford and that will be 
successful on the battlefield and give more protection and more 
mobility to our forces as they move around that battlefield 
based on the current dangers.
    We also feel that we have developed a strategy, a 
procurement strategy which would allow us to buy the JLTV, when 
it is ready to go to the fleet and sufficient numbers to meet 
our immediate needs.
    And then take a break in order to purchase the ACV and then 
come back and finish up our body of JLTVs later on in the 
program after the Army is done there.
    So we feel there is a good strategy there, and we are 
pushing ahead with that very good success story. I have driven 
in all of the--all of the demo models that have been provided 
to us by industry, and each one of them is--really is quite a 
vehicle and gives you quite capability on the battlefield.
    Regards to the ACV has been testified to numerous places on 
numerous times. The ACV is, in fact, the Marines' number 1 
ground priority, and we are pushing forward to that. And that 
is also a success story.
    Drawing on lessons learned, I think, from the EFV 
experience, we have been able to incorporate that both into our 
capabilities documents as we have produced those, and again, 
into our acquisition strategy as we develop that.
    The ACV, of course, is going to cover down on the 
developing gap in our capability--our core capability of 
projecting power ashore from our amphibious ships, and that is 
the initial wave of troops going ashore, that they have a self-
deployer that provides them once they hit the, you know, the 
water line, the ability to maintain the momentum moving ashore 
to the objective, conduct operations on the objective in a 
protected armored environment and then withdraw to the ships, 
again, in a timely manner.
    We feel that plays to our core capability, the unique 
capability of being able to project combat power ashore from 
our forward-deployed amphibious forces at a time and place of 
our own choosing.
    The ACV has been developed over the past 18 months when the 
capability, of course, was determined, we went through and done 
an AoA [Analysis of Alternatives] and that was completed last 
summer. Subsequent to that AoA and the JROC [Joint Requirements 
Oversight Council] approval to move forward with the program, 
we look at the ability to also add to the capabilities by 
adding high water speeds.
    We have gone back to take a look at the feasibility of a 
self-deployer that could achieve higher water speed in the A2/
AD [Anti-Access/Area-Denial] environment. We have reopened 
parts of the AoA, if you will, just to ensure that the high 
water speed capability is used in that.
    And we are moving along by establishing a work force down 
at Quantico focused on the ACV, a unique work force that I will 
let Mr. Stackley talk to here in a moment. We think that we 
have a real blend of industry, the Department of the Navy 
personnel and the Marines at Quantico, in putting together a 
team that will give us what we need, what we can afford, when 
we need it.
    The last point that I will make is your discussion point 
about the IOC of the ACV. We are also concerned about that, of 
course, we don't want a gap to develop for our capability to 
lesson, so we have an AAV sustainability program that is well-
funded, in the budget, that we will maintain and improve about 
400 of our AAVs, which will--while they won't extend the life 
of those vehicles, they will give us more survivability for the 
Marines inside the vehicles on the battlefield.
    We will improve the seating in the back. We are going to 
improve the power train, and we are going to put protection on 
the floor which will protect those Marines from the threat of 
the IEDs [improvised explosive device] which have developed on 
today's battlefield.
    With that, I will ask Mr. Stackley if he has any comments 
regarding the unique acquisition strategy.
    Secretary Stackley. Let me simply add to what General Mills 
described that, typically, or historically what we have done is 
we would do an AOA. We would develop requirements. They get 
tossed over the fence. We might get a parametric type of 
estimate accomplished.
    Eventually, we roll that forward and, at some point in 
time, downstream industry gets closely involved, and we are out 
there dealing with proposals and get the proposals back and, 
quite often, we end up with a mismatch between what the 
requirement was, what the real cost is, and what the schedule 
is.
    And what we are trying to do different here, is do the 
front end of requirements' definition since we know so much 
about the AAV, the EFV, other combat vehicles, bring industry 
into the process and tighten up the loop between the 
requirement, the design, and the cost.
    So in near real time, you can look at trades between 
capability, affordability and what that might mean in terms of 
schedule for the overall program. We are placing great emphasis 
on cost realism which means getting a mature model.
    It also means using mature technology so we don't have this 
lengthy, drawn-out development phase for the program.
    So we think we have this exactly right, from MARCORSYSCOM 
[Marine Corps Systems Command], Quantico, PEO [Program 
Executive Office] land systems all involved, but also, Navy 
warfare centers and Army personnel are joining the mix. And we 
brought industry in--we brought in the big defense contractors, 
but we are also opening up third-party participation in this 
requirements' definition, feasibility, and cost estimating 
phase of the program.
    Our intent is to get this put into shape for the 2015 
budget as it comes over so it has the definition that you all 
need, and in the interim, to open up the door so you all have 
insight into the how--the progress that we are making and how 
we are going about this acquisition.
    Mr. Courtney. Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Now Mr. Kilmer and other valuable members of 
the subcommittee. The gentleman from Washington, I yield 5 
minutes.
    Mr. Kilmer. Thank you, Mr. Chairman. And thank you all for 
being here. I guess my first question is, and I am not sure if 
I should address it to Admiral Myers or to Secretary Stackley, 
my question is around the impacts of sequestration and how it 
affects life-cycle costing of our vessels.
    I was out at our Naval shipyard--our Puget Sound Naval 
shipyard in my neck of the woods and heard questions around 
deferred maintenance and how furloughs and the laying off of 
temporary employees might affect, also, the amount of time that 
maintenance happens.
    Someone said, and I don't know if this is accurate, but the 
amount of time for maintenance--the length of time for 
maintenance Stennis [USS John C. Stennis] might increase by 4 
to 6 months.
    I am just wondering how, if at all, does that impact 
acquisition strategy and how you look at ongoing costs within 
the vessel program?
    Admiral Myers. Okay. I will take the first stab at this, 
and if I can address the impact of our shipyard workers and 
furloughs, the second part of your question and then roll that 
into the impacts of lifecycle and acquisition and turn that 
over to Mr. Stackley.
    Well first, furloughing of our civilians does impact our 
ability to generate our carriers and submarines in fiscal year 
2014, because this is the workforce that is actually doing the 
maintenance, both in our ship and aircraft depot maintenance 
facilities.
    So the lost work that you refer to, Congressman, it creates 
a domino effect to our maintenance schedules that it is going 
to take us a couple of years to dig out of. The Department of 
Navy is exploring options to minimize these impacts, but when 
you look across 2013, 2014 and 2015, just the impacts of this 
year, when you focus on our carrier readiness, it is going to 
delay getting carriers out of the yards.
    When you talk about submarine readiness, it is also going 
to impact delays. It is going to extend the duration of--
upwards of three SSBNs, 3 to 4 months. We have the data that 
shows, by ship, what kind of delays that furloughing these 
workers would create.
    And there are also impacts to our aviation readiness, 
upwards of 60 aircraft and 150 engines would SLEP [undergo 
Service Life Extension Program] from 2013 into fiscal year 
2014. So these are going to create readiness challenges for the 
Department of the Navy that we are going to have to reconcile 
in 2014, 2015, and 2016.
    And we are going to need the President's Budget, 2014 
submission, which doesn't account for these kinds of readiness 
impacts, but we are going to need that budget in order to have 
an approach to have the funding levels, and the resources 
required, to try to reconcile this.
    Secretary Stackley. I don't know if I can improve much upon 
Admiral Myers' statement other than to describe that, while we 
are doing what we can within the dollars we have and the 
authority we have to reprogram, we are doing what we can to 
restore the funding that we had programmed for maintenance.
    We are going to be limited, and so there will be a deferral 
of maintenance that rolls into the outyears, that will have an 
impact. That is on the maintenance side.
    On the investment side, we are faced with shortages in 
every investment line, and so we are having to go line by line 
to determine how do we absorb that shortage, and we are trying 
to balance between the near-term costs, the outyear impacts, 
the likelihood of being able to restore the funding in the 
outyears to arrive at what is the right answer for total costs 
and total capability.
    And it is not the same in each case. In certain cases, we 
are holding onto the procurement tightly because if we let that 
slip, the impacts to jobs, the impact to costs in those 
programs, will be so high that fixing that later will be out of 
balance.
    And in those cases, we might look at deferring some support 
costs, some spare costs, because that is a dollar-for-dollar 
restoration.
    In other cases, where we might be on the edge in terms of 
readiness, we are being very careful to not defer anything 
associated--that might impact on readiness when it comes to 
support costs and spares. And there, we might be taking a hit 
in terms of the quantity that we procure.
    There definitely will be an impact. It is very difficult to 
quantify today. In our process, we are trying to balance near-
term and far-term to arrive at the, you know, the right least-
cost impact and least impact to the total capability and force.
    Mr. Kilmer. Thank you, Mr. Chairman.
    Mr. Forbes. Mr. Kilmer, thank you for that line of 
question.
    Now I recognize the distinguished gentleman from Georgia, 
Mr. Johnson for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. Gentlemen, the Middle 
East eruption a couple of years ago, the Arab Spring, touched 
many nations in the area of your--or in the Gulf Region.
    And one of the nations that has been impacted by that has 
been the island nation of Bahrain, and Bahrain has served as 
the headquarters for the Fifth Fleet.
    With the disturbance there, civil demonstrations and more 
people being involved, just a great percentage of the 
population involved in the demonstrations, and the kingdom--the 
king--cracking down on that kind of activity, and the residents 
becoming more and more agitated and violence is, perhaps, on 
the horizon, lots of human rights violations going on, some 
say.
    What do you see as the future for our activities in 
Bahrain, stationing of the Fifth Fleet there, and have there 
been any contingency plans put into place or at least developed 
in the event that the situation gets out of hand in Bahrain.
    Admiral Myers. Congressman, thank you for the question. The 
Navy's role is to meet our responsibilities to operate forward 
where it matters and be ready when it matters. Having a 
headquarters in Bahrain for our Fifth Fleet, a Naval Central 
Command Component Commander, is important for the Navy.
    To get to the specifics of your question, in terms of, 
contingencies with relationships that we have with the nation 
of Bahrain, I would need to take that for the record and get 
back to you.
    [The information referred to can be found in the Appendix 
on page 122.]
    Mr. Johnson. So what you are saying is that, you cannot 
answer the question as to whether or not there are--there is 
any contingency planning that is taking place at this time?
    Admiral Myers. Congressman, I would prefer to take--I can 
answer the question, but not in this forum.
    Mr. Johnson. All right.
    Admiral Myers. And I would prefer to take it into a more 
appropriate forum.
    Mr. Johnson. All right. I understand.
    News reports indicate that the Littoral Combat Ship, which 
relies heavily on electronic systems, is vulnerable to hacking. 
Can you elaborate on the issue and tell the committee what you 
are doing to ensure that all of our systems, including LCS, are 
secure?
    Admiral Myers. Yes, sir. I also heard--got the same report, 
and this is part of a vulnerability assessment that we look at 
our platforms to make sure that we are confident that they 
aren't vulnerable, and if we find any issues or 
vulnerabilities, then they are reported, assessed, and then 
ultimately, rectified.
    This vulnerability assessment has been reviewed by the 
Government industry team, so we are assessing it right now, and 
where there is differences exist from the previously--anything 
that was self-identified--or things that were from the Navy's 
or industry's expertise or input.
    What we intend to do is get the Government and the Navy 
team together and put together an implementation team to 
understand what we need to do to mitigate it. Our information 
assurance threats continue to evolve, and so we need to evolve, 
to counter them.
    The specifics of what is in that report is classified, and 
again, that would be something that we would take to a 
different forum to talk about in more detail.
    Mr. Johnson. Thank you. I yield back.
    Mr. Forbes. Thank you, Mr. Johnson.
    I believe Mr. Wittman had one short followup question, and 
I will yield to him at this time and come back.
    Mr. Wittman. Thank you, Mr. Chairman. I wanted to ask 
Secretary Stackley, if you can briefly describe the plan that 
the Navy has for the replacement of the T-AO [Tanker] class and 
LSD class ships. I think that is a concern going forward, 
making sure that we are looking at that. Can you give us a 
little focus on what that plan might be?
    And secondly, is there any plan to use some common hull 
forms to look at the hulls that are currently in the inventory 
using that, as well as, systems that are currently on ships to 
make sure that we can maybe gain some time and some 
efficiencies with using those particular elements in design in 
replacement of the T-AO and the LSD class of ships.
    Secretary Stackley. Yes, sir. Thanks for the question. I 
will break it up into two parts, T-AO(X) and then discuss 
LX(R), but there is a lot of common theme here.
    First, a T-AO(X), the Navy is going in this budget, FYDP 
the Navy is proceeding with procuring the T-AO(X) what we would 
call, ``ahead of need.'' In other words, there is certainly 
more service life on the in-service fleet oilers; however, we 
have two issues that we are addressing when we go after the T-
AO(X).
    First, we are outside of MARPOL regs [Marine Pollution 
regulations]. We do have an exemption in support of--for 
national security, but we just view as the responsible thing to 
do to proceed with a more modern fleet oiler and get within 
MARPOL regs, which frankly will improve the T-AO(X)'s access to 
foreign ports.
    So we have moved that program into a 2016 start and, at 
this point in time, we are doing design studies leading up to 
the ultimate competition for procurement in 2016. We are, in 
fact, doing everything we can to just leverage mature 
technologies.
    There is no invention or breakthrough required for T-AO(X). 
We want to leverage commercial design to the extent practical, 
and we are working through those details right now, inside the 
building, inside the process and with industry.
    So I believe that is well on track. I mentioned two points. 
One was to address the MARPOL regs concern, but the other is--I 
described in my opening statement--industrial-based concerns 
across our amphibious and auxiliary shipbuilding sector, and T-
AO(X) fits in nicely to address that concern. So we see that as 
a win-win.
    The other program you described was the LX(R) which is the 
replacement for the LSD 41/49 class. That class retires in 
numbers in the mid 2020s. Right now, she is scheduled for 
procurement in 2000--the LX(R) is scheduled for procurement in 
2019, which would notionally give her the lead ships' delivery 
date about the 2020 to 2025 timeframe.
    We have advanced procurement that lays in 2018 timeframe, 
and today we are conducting the analysis of alternatives to 
determine exactly what will the LX(R)--what will the--between 
the requirements and capabilities--what will the LX(R) be?
    In that analysis of alternatives, we are looking at 
everything ranging from clean sheet new design to a modified 
repeat on the existing LSD 41/49 class to foreign design 
concepts that could fit the bill, and also, specifically back 
to your question, leveraging current shipbuilding programs, 
specifically the LPD 17 class design, but modifying it for the 
lift fingerprint required by the LSD 41/49 replacement.
    So the AoA is going through that work today. The ship 
procurement is out at the end of the FYDP, and in between, we 
do have a concern regarding that sector of our industrial base.
    So the Navy's press is to keep those design activities on 
schedule and look for opportunities to try to bridge that gap 
in the industrial base and hit the affordability numbers that 
we need for both of those programs.
    Mr. Wittman. Very good. Thank you, Mr. Chairman. I yield 
back.
    Mr. Forbes. Thank you, Congressman Wittman.
    If I could pick up now and thank you so much for your 
patience in being here. I have a series of questions we need to 
get on our record before we conclude the hearing, and I want to 
pick back up with where I left, and Keith, if you could pass 
out this chart, please. I just want to show you where we get 
our numbers, so when you are back and doing your research, this 
is from the HASC committee staff which do a very good job. We 
depend on them to help us write our legislation.
    And based on their numbers, what we have, Mr. Secretary and 
Admiral, particularly, you can look over here, the $291 billion 
figure is essentially what the cost extrapolated out to be when 
that money wasn't reinvested back, but according to the HASC 
figures, we have $291 billion plus $487 billion.
    So that comes up to about $778 billion of cuts from 
spending that the Administration took long before 
sequestration. Now, if that figure is inaccurate, we will hold 
the record open until you get back to us.
    But until we get something from you guys or from your 
staffs, we have to work on the assumption that our staff is 
correct. So, we had $778 billion of cuts that took place long 
before sequestration.
    To the knowledge of this subcommittee and our staffs, we 
heard nothing about these cuts being too much from the Navy, 
the Marine Corps or the Air Force. If I am wrong on that, we 
will hold the record open until you can get us documentation 
that shows where that was.
    The way that would normally come back over is if it wasn't 
expressed in an open hearing like this, you would give us an 
unfunded requirement list. So Admiral, the first question I 
have for you is, based on this $778 billion figure, or whatever 
the figure ultimately comes back to, we have received no 
unfunded requirement list from the Navy.
    To your knowledge, did the Navy submit one to us or 
Secretary Stackley, that we just missed somehow and did not get 
it?
    Admiral Myers. To my knowledge, there has been no 
submission, and before I get into that, I want to make sure 
that I reaffirm that the approach that we are taking with the 
sequestration that is, you know, has already been on record, 
was focusing on the must-pay bills, reconciling----
    Mr. Forbes. And all this was the figures before 
sequestration.
    Admiral Myers [continuing]. Right. So to my knowledge, 
there has not yet been a submission for an unfunded----
    Mr. Forbes. And there hasn't been one in the last several 
years that you know of, is that correct?
    Admiral Myers. I would have to get back to you----
    [The information referred to can be found in the Appendix 
on page 119.]
    Mr. Forbes. If you would, if you don't mind doing that, and 
I don't want to take up more time than necessary, but I would 
just ask, General, if both--all three generals, if you would do 
the same thing. If I have missed one, if you would get it for 
us.
    And then, Mr. Secretary, based on the numbers that we have, 
whether we took your numbers or CBO's numbers, it will require 
us to have a significant uptick in our shipbuilding accounts if 
we are going to meet these numbers by at least 20 percent or 
more over the next several years, if we are going to reach the 
goals that we have in our shipbuilding plan.
    Would that be a fair assessment?
    Secretary Stackley. Yes, sir. Our report that we submitted 
last year, and you will get the update this year, it shows the 
funding required for a shipbuilding plan, and it is very clear 
that our funding goes up markedly, beyond the FYDP.
    Mr. Forbes. And I thank you for your work in doing that. 
Can I ask you to address, now, the Ohio replacement program 
and, particularly, you were kind enough to submit--or Admiral 
Myers actually, that Secretary Stackley submitted an interim 
update to the 30-year shipbuilding plan 2 days ago that 
indicated a significant increase to the ship construction 
account to support the Ohio class replacement.
    And Mr. Secretary, we thank you for your efforts in trying 
to get that to us so that we could have it in a timely manner, 
but if you look, even in the fiscal year 2014 budget request, 
the public requires over a billion dollars and is expected to 
ramp up until we purchase our first boat in fiscal year 2021, 
at the cost of over $5.5 billion.
    And I support, most people on this subcommittee, support 
what you are doing and they support the Ohio class replacement, 
but considering that requirement and to associate it with the 
Nuclear Posture Review, to your knowledge, has the Secretary or 
your staff provided any support for the program as a strategic 
investment over and above the Navy's topline.
    In other words, what are we going to do when we have that 
huge amount of money. Is it going to all come out of the 
shipbuilding account, or is there some argument that it might 
come outside that shipbuilding account?
    Admiral Myers. Mr. Chairman, there is no question that, 
when you look at the mid-term of our 30-year shipbuilding plan 
that, just looking at the numbers and the number of ships, half 
of our resources are SCN [Shipbuilding and Conversion, Navy], 
if you will, in a typical year goes to one ship.
    So it is an understatement to say that that is going to 
challenge us. It challenges our shipbuilding account and it 
challenges us on--when you look at that timeframe.
    Now, my leadership has been on the record acknowledging 
this resource challenge that is outside the FYDP, largely due 
to investment and the requirements associated with the SSBN-X 
program.
    But when you look at the 30-year shipbuilding plan as a 
whole, and the area that we can--we are most confident about, 
which is the near term, and you look at the FYDP, the next 5 
years with the delivery of 47 ships and retiring 42 ships, I 
think that the Navy and the shipbuilding plan puts us on a 
trajectory that takes us to 300 in fiscal year 2019, and keeps 
us around 300 in the 2020s.
    Mr. Forbes. And I am going to suspend my questions and 
recognize Congressman Runyan for any questions he might have 
for 5 minutes.
    Mr. Runyan. Thank you, Chairman. My question is for General 
Allardice, specifically, I know I have brought this up a few 
times, but dealing with the CRAF [Civil Reserve Air Fleet] 
program. We know--we spend about $244 million shipping cargo on 
foreign carriers, but as a result of what I think most people 
would say, overflying our grey tails, if you would, C-5s, C-17s 
[Globemaster III strategic airlifter].
    The Air Force has had to reprogram 136 million last year to 
repair the engines in that fleet. First of all, I understand 
that there is a mission readiness that you have to have to, you 
know, maintain your readiness with that fleet, but there is 
also--our duty here is to make sure that--I think you would 
agree--that the CRAF program is a national security asset.
    But as we don't use them, we have seen them fall off their 
ability to do their mission because we are not using them and 
spending, also money, on other foreign CRAF services.
    So my question here is really, do we need a legislative fix 
and would AMC [Air Mobility Command] be in the conversation of 
having a legislative fix to make sure stuff like this--we are 
doing it right to the best and not having kind of an ambiguous 
kind of, maybe we will, maybe we won't kind of decision at AMC.
    General Allardice. Sure. Thank you and thank you for your 
support. First off, we obviously depend heavily on the CRAF. It 
is part of our total force projecting capability and, in order 
to execute any war plan, we need both the passenger capability 
and the cargo capability that civil reserve air fleet 
represents.
    So we recognize that our objective today, and we agree with 
the community, we had a meeting last week. We agree that our 
number 1 objective is to have a grey tail organic fleet and a 
civil fleet that is capable of meeting the national needs in 
the time of
emergency.
    So we have that common objective. We understand and agree 
with the community that in order to achieve that objective, we 
have to have a healthy civil fleet. The CRAF fleet, in 
particular, it to parse out the civil augmentation. It is not 
part of the CRAF.
    So there are objectives that we need to understand 
collectively that exist in the civil side. Honestly, the last 
10 years, the civil side has enjoyed a significant amount of 
revenue, and our numbers are a little bit higher than what you 
read. It is somewhere north of $2 billion over the last 10 
years. It went to the civil augmentation fleet, not just the 
CRAF, but civil carriers in general. So a substantial number.
    Where the challenge comes is as you draw down out of 
Afghanistan, the business goes down, you come to our line--
readiness line, you know, how do we train and age the organic 
fleet, how then do we also ensure that we have a ready CRAF.
    As you know, sir, we have completed phase one of the CRAF 
study. We are into phase two of the CRAF study right now which, 
we believe, will inform the future CRAF from our perspective 
and, as that comes out, we would obviously share with Congress 
and discuss that.
    With respect to a legislation in the meeting last week, we 
agreed that--both--that we should working with industry to--it 
is premature today--to say that legislation is required because 
we don't know what the CRAF study will show as we look forward 
to CRAF, what the readiness line and the requirements are for 
the CRAF, and what that looks like.
    We did agree that we will work with the carriers to--in a 
collaborative environment--to ensure that we understand, if the 
policy can fix it, we will use policy. If it is a parallel path 
to have legislation, we will work with them to have the right 
from our perspective, the right legislation.
    And that is where we are today, is a common agreement that 
it is possible, but we think it is premature today to say that 
it is absolutely necessary.
    Mr. Runyan. Well I think the one thing, and I know 
Congressman Hunter also has been all over this, the one big 
thing is the number I brought up, you have obviously our CRAF 
fleet, but we have $244 million going to foreign carriers.
    I mean, that is what I think you are going to get a lot of 
pushback, you know, from this committee, can we legislatively 
fix that to make sure this doesn't happen, you do have to allow 
some wiggle room because, obviously, you know, time and all 
that and availability, sometimes come into play.
    But I think that is one thing that we are going to have 
to--we are going to have to have that discussion because it is 
our taxpayer dollars, you know, and this program is, obviously, 
as you said it, a national security asset, and we want to make 
sure that we are bringing as much of that money back home as 
possible.
    General Allardice. Sir, we understand that, and we share 
the patriotic tone of that. What is always of great concern is, 
in the crisis, when, you know, time is everything and we must 
get something to the fight to support the warfighter, and very 
often, the equipment that you are describing that carried on 
the non-U.S. flight carriers, is equipment that is outsized, 
that, you know, we can't--we are tapped so we can't get to it 
with organic at the time.
    Or we would push to our civil fleet, but they can't carry 
it for a variety of reasons, they can't carry the outsized 
cargo or because it is going into a field where they can't go 
into because our risks.
    So that is--we recognize what you are saying--we share with 
our partners in the industry, the interest to get there, to get 
there with policy, and we will come forward with our solution.
    Mr. Runyan. Thank you. Chairman, I yield back.
    Mr. Forbes. Thank you for those questions, and I would like 
to recognize my good friend from Rhode Island, but Jim, before 
I do that, if you don't mind, I would like to recognize another 
member of our staff that is going to be leaving, Tom MacKenzie.
    Tom has just given us great service. He retired from the 
Navy and Tom served on the Senate Armed Services Committee 
before he moved up to the House, and Tom, we just thank you for 
that service and all you have done for this committee and for 
our country.
    And with that, Jim, I recognize you for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman. First, I want to 
thank all of our witnesses for appearing today and for your 
great work on behalf of our Nation. We certainly appreciate the 
benefit of your testimony and as we work to ensure that our 
forces have the platforms and capabilities that we need to 
handle the complex environments of the future.
    Let me say from the outset, along with several others on 
this subcommittee, I have been a staunch supporter of the Model 
Acquisition Program, a national asset that is the Virginia 
class submarine program, and we certainly appreciate the Navy's 
working with our offices to enable the inclusion of a second 
submarine in the fiscal year 2014.
    And I am certainly pleased that there has been strong 
support for the program and its budget, and I look forward to 
working with all of you to ensure the health of the program 
into the future.
    Let me first, if I could, start with you Secretary 
Stackley, and Vice Admiral Myers. I am particularly interested 
in how you are planning to now, to have the capability to 
integrate very high energy intensive weapons systems, such as, 
directed energy weapons, high-powered microwaves and electronic 
warfare systems and rail guns in your surface combatants.
    Can you speak to the Navy's plan to ensure that the ships 
that we are planning for and procuring now, as well as in the 
future, are capable of accepting the power, including loads of 
such systems in the future?
    Secretary Stackley. Yes, sir. Two parts here. First, there 
are a number of directed energy developments ongoing. You 
mentioned rail gun. There are various laser projects that we 
have in place, and step one is to mature the technology, and 
that is two part--actually, it is three parts.
    One is the basic technology has moved far along, so that is 
going well. The second part is to weaponize it. And that is 
probably the hard part right now, and that is to take--if you 
were to visit our lab at Dahlgren and take a look at the 
systems that are in development for these directed energy 
weapons.
    We are making progress on the laboratory floor, but we have 
got to make the leap now to weaponizing them. A simple example 
with the rail gun. The focus right now--we have demonstrated 
the technology, now what we have got to do is, you have to 
develop a round, you know, that has relative utility for the 
rail gun. So that development is ongoing now. We have to size 
the weapon that it would accommodate our platforms, so that is 
ongoing now. So we are many years away, in the case of the rail 
gun, from actually installing one on board ship, but we are 
trying to keep--we are trying to pace that vision to the 
ability to mature the technology.
    Lasers--we are a little bit further along. You have 
probably seen the videos of the demonstrations that we have 
done in terms of actually taking out small targets with a 
relatively small scale laser. So then the challenge becomes, 
how do we scale up that capability and, right now, we have got 
a demonstrator, effectively a demonstrator, on board the Ponce 
[USS Ponce amphibious transport dock ship] on deployment, so it 
is beyond technology demonstration. Now we are getting it in 
the hands of the fleet to figure out how do we best employ 
that.
    So that is kind of the state of where we are today. To get 
to the rest of your question, which is, how do we ultimately 
get it to be a weapons system out in the fleet, and how do we 
accommodate that on our platform. So that is the next 
challenge.
    This technology is a--places a high demand on power systems 
for our platforms, and we have--power is precious onboard all 
of our ships and, with the introduction of integrated power 
systems, first on the surface side with the DDG 1000 [Zumwalt 
class guided missile destroyer], we start to see a technology 
on the platform side that then accommodates the demand of the 
directed energy.
    So we do not have a clear point in time or program plan 
that we can say, ``On this platform, at this point in time, we 
will have rail gun or laser system that will be fleet ready.'' 
But, we are marching these all along and parallel to get there.
    So what I would invite is a question for the record where 
we come back and lay out something that represents a roadmap 
for these technologies, how we mature the technologies and 
then, what that means for our platform to host them.
    [The information referred to can be found in the Appendix 
on page ?.]
    Mr. Langevin. That would be helpful. Admiral, do you want 
to comment?
    Admiral Myers. To complement Secretary Stackley, in order 
to understand and inform what the future requirements need to 
be for our ships and for our warfighting, the Under Secretary 
of the Navy established Navy directed energy steering group.
    And this steering group is going to develop a roadmap, and 
they are going to have near-term over the next 5 years; mid 
term, over the next 5 to 10 years; and then a far-term plan so 
that that can inform our resource decisions, and the way that 
we approach weapons and weaponizing our ships.
    Also, although this directed energy working group is 
ongoing, as Mr. Stackley pointed out, we are not waiting for 
the results. We have done lots of testing when it comes to 
lasers, and that goes back to 2008, with the assistance of 
congressional adds [add-ons], I might add.
    And then in 2012, the USS Dewey was able to demonstrate the 
utility of a laser weapons systems in terms of what the impacts 
would be against a threat representative of an unmanned aerial
vehicle.
    So we are continuing the development, but we also need to 
be guided by a steering group and a roadmap that will tell us 
what we think we need and what is in the realm of the possible 
over the next 5, 10 to 15 years.
    Mr. Langevin. Thank you. Well, my time has expired. You 
have other questions that I will submit to the record, and if 
you could respond to those as expeditiously as possible, I 
would appreciate that.
    Thank you, Mr. Chairman.
    Mr. Forbes. And if I could follow up on the gentleman from 
Rhode Island's question with you, Secretary Stackley. 
Obviously, to have the roadmap, you have got to have the 
platforms to put them on, and what is the risk of essentially 
stopping the bill to the DDG flight to be.
    You know, that has been the most successful powerful and 
capable warship afloat in favor of fielding the new AMDR [Air 
and Missile Defense Radar] radar in the Flight III destroyer. 
And we are looking at these power systems, you know, we know we 
can do it and put the radar on there, but it kind of limits us 
down the road if we want to do what the congressman was talking 
about.
    This ship will be procured to 2029, and we know it is going 
to be in service through the 2060s, have we considered putting 
this radar on the LPD 17 or the DDG 1000 hull, and give us the 
explanations there if you would.
    Secretary Stackley. Yes, sir. Back in 2009 timeframe, we 
accomplished what we referred to as, ``hull radar study,'' 
which went after the need to increase our integrated air and 
missile defense
capability.
    At that time, some of the competing concepts were the DDG 
1000 as the platform, the DDG 51 and other platforms, such as, 
LPD 17. What we were trying to get at is a total force solution 
that would look at platforms, but not platforms alone, also, 
netting links and integrating across platforms, radar resource 
capability plus the kinetic, you know, the weapon, the SM-3 
[Standard Missile 3].
    The results of that study were a couple. First, AMDR was 
the right technology to invest in for the radar upgrade, and 
that has proved itself, that development is going very well.
    Second, to determine how much radar capability do you need 
at the platform level in order to bring the total ballistic 
missile defense capability up against the threat that was sized 
in that study. And that threat was based on intel 
[intelligence] reports, and it is worth the staff getting an 
update on that study in those reports, to put this in the right 
context.
    But suffice to say that, the complexity of that threat, and 
the--I call it the ``ray density and the size,'' was such that 
we need to go more than an order of magnitude beyond what we 
have today in the SPY-1D(V) [S-band Aegis littoral warfare] 
radar.
    So we measure that radar capability in terms of dBs 
[decibels] above SPY. And the range of capability that we 
needed at the platform level, was SPY plus 15 dB to SPY plus 30 
dB.
    And what that means in terms of size is a SPY plus 15 dB 
radar, is larger than what we have today on the DDG 51. But 
much of that increased capability comes through the AMDR 
technology. So it is slightly larger than what we have today. 
SPY plus 30, in fact, would challenge LPD 17. It is a 
significant-sized aperture.
    So what we settled on was, we know the DDG 51 is going to 
be central to the BMD [Ballistic Missile Defense] role. We know 
we need integrated air missile defense, so we need the AAW 
[Anti-Air Warfare] capability of the 51, and we need it in 
conjunction with the carrier battle groups that it is 
protecting.
    And we settled on a size that would give us something 
greater than SPY plus 15 capability on the 51 Flight IIIs, for 
the radar. To do that, we have to upgrade the power plant.
    So, we have got the studies going on today, looking at, we 
have got a power plant selected, and now we are looking at the 
design impacts associated with the machinery spaces. It is 
all--it is engineering work, it is not new discovery.
    So those--to studies are going on the platform to support a 
downstream decision for the 2016 Flight III ship, so we will 
see the--we will get through a milestone decision on the radar 
that says it is ready for production.
    A milestone decision on the ship side that says that the 
upgrades for power and cooling are ready for production, and 
then we will be coming back with the budget to the Defense 
committees so that you all see exactly what the approach is in 
terms of managing the risks, managing the costs, and meeting 
the requirements on that platform.
    Mr. Forbes. And thank you for your analysis as to how you 
are doing that, and our staffs will continue to work your 
staffs on making sure we understand the direction you want to 
go with that.
    Just a couple more questions that we need to finish up 
with. Cruisers, I know this is a very sensitive issue. We know, 
also, that the Navy is still assessing the feasibility of the 
Port Royal, but Congress was pretty clear in the fiscal year 
2013 NDAA Defense Appropriations Bill, that it believes it is 
essential to maintain our Naval fleet through the expected 
service life of the cruisers.
    We included the appropriate funding for the modernization 
of those assets. A couple questions here, and I don't mean to 
be facetious on this: Do we need to do anything else, 
legislatively, to make clear our intent of what Congress wanted 
to do with the cruisers, or do you feel that the Navy at least 
understands the congressional intent of wanting to modernize 
and put those monies toward the modernization of the cruisers?
    Admiral Myers. Mr. Chairman, first of all, we appreciate 
Congress' support in the $2.4 billion that was added in the 
ships' modernization and operations and sustainment fund--SMOSF 
[Ship Modernization, Operations, and Sustainment Fund]--that 
enabled the Navy to retain the seven cruisers and the two LSDs 
for fiscal years 2013 and 2014.
    Those funds, they expire at the end of the fiscal year 
2014.
    The Navy originally had those funds--or had those ships 
slated to retire because of not being able to afford them. 
Congress gave us the money for 2 years, and the Navy intends to 
operate those ships for 2 years and then, in the beginning of 
fiscal year 2015, our intent is to retire those ships.
    Mr. Forbes. So with the money that Congress appropriated to 
modernize them, does the Navy plan to spend that money on 
modernizing those ships as Congress directed it?
    Admiral Myers. The plan that the Navy brought to Congress 
was essentially a FYDP plan, a 5-year plan. And in that plan, 
the Navy broke up all the different elements that would be 
required to sustain and modernize those ships. The people, the 
HM&E [Hull, Mechanical, and Electrical], the modernization.
    So with 18 months since the appropriations act, until the 
time that those funds retire, there isn't enough time to do the 
planning or to procure the modernization that would be 
required, much less the time to install the upgrades, to use 
that portion of the SMOSF funds.
    Mr. Forbes. So, it would be fair to say that, right now, 
the Navy does not intend to use those monies as a appropriated 
by Congress for the modernization of the cruisers?
    Admiral Myers. The Navy is assessing, but it is challenging 
to----
    Mr. Forbes. But you have no intention of doing that right 
now, is that correct?
    Admiral Myers. We do not. It does not appear that we have 
the time to do the planning to procure the parts and then to do 
the installation, but we are assessing that, and that is 
something that I would like to take for record and get back to 
you.
    Mr. Forbes. But you haven't forwarded any long-term lead 
materials or anything like that and don't plan to do that in 
the near future. Is that correct?
    Secretary Stackley. That is correct, sir. Let me kind of 
summarize. First, Congress' intent was very clear, all four 
defense committees came out strongly with regards to the Navy's 
plan to early retire the seven cruisers and the LSDs.
    And the Secretary, and as you know, we are also consistent 
in the testimony last year, and thus far, in the posture 
hearings that, we would like to hold onto these ships. This 
came down to a difficult budget choices and where to task 
risks, but the Department of the Navy would like to hold on to 
both the cruisers and the LSDs were it not for the total cost 
of operating plus modernizing.
    The add by Congress in 2013 as Admiral Myers described, it 
arrived halfway through the year. The dollars effectively 
expire at the end of 2014, and in this window of time, to put 
$2.4 billion to work without the long-term vision in terms of 
continuing to sustain and, actually, accomplish modernization, 
we can't get there quickly enough.
    Mr. Forbes. And I appreciate that analysis. It is fair 
analysis that may differ with the outcome, but it is a fair 
analysis. I just want you to understand our frustration, which 
I know you do, when you then say these are difficult budget 
choices, we wanted the cruisers, but we see the fact that we 
were cutting $778 billion, and nobody from the Navy said, 
``Wait a minute. We really don't want to cut $778 billion. We 
might want to use some of this to keep our cruisers.''
    That is what is frustrating, Admiral.
    Admiral Myers. Mr. Chairman, if I could just add, the Navy 
does intend to operate these ships, maintain and operate these 
ships, so it is not that we are not using any of the $2.4 
billion. I want to make that clear. It is just the 
modernization portion that challenges us because the timeframe 
that we have to use that money.
    Mr. Forbes. And basically, we are foregoing 10 or 12 years 
of service life for the cruisers, fair?
    Admiral Myers. Yes, that is a fair statement.
    Mr. Forbes. Secretary, just a couple of--air force, wind 
force, and then we will be wrapped up.
    The Ford class carrier. You and I have talked about this, 
everybody is doing good jobs. We know it is hard work. But the 
estimated costs of CVN 78 has grown 22.3 percent, at least the 
numbers that we have since the submission of the fiscal year 
2008 budget and 4.1 percent since the submission of fiscal year 
2013 budget.
    It has been reported that the Administration is considering 
a legislative proposal to increase the cost cap of CVN 78 that 
was enacted in the fiscal year 2008 NDAA to $12.8 billion. It 
is essential that we provide better cost controls on the 
program.
    We have talked about that, I know both sides are trying to 
work on that. Can you just explain to us what steps have been 
taken to better control the costs on the Ford class carrier and 
what, if anything, we need to do to support you in helping to 
do that.
    Secretary Stackley. Yes, sir. To understand what is being 
done, the controller costs, it is probably best to first 
understand what has been driving the costs.
    CVN 78 is a near-100-percent redesign of the Nimitz class. 
Not just a design but actually the technology and the systems 
that are incorporated in that platform. So there were a large 
number of development efforts that were ongoing in parallel 
with the ships' design phase.
    And we have a matter of concurrency of development efforts 
that were delayed, design efforts that were delayed, all that 
rolling into material procurement that was delayed. All of that 
going into production of the carrier and accumulating into a 
significant cost growth during the production phase of the 
carrier.
    So the efforts to contain this are manyfold. One is the 
design contract itself was rewritten to do a couple of things. 
One to go after things that we could do at that stage of design 
to reduce costs, and also, change the type of contract to drive 
to a completion contract.
    Government-furnished equipment, there is cost growth 
associated with Government-furnished equipment. A significant 
part associated with the electronic magnetic--electromagnetic 
aircraft launching system, and the advanced arresting gear.
    To contain costs on that, we basically put that system into 
a firm fixed price contract by the vendor, and we put--in fact, 
we assigned penalties if the delivery of that system is late. 
And since that point in time, that program has been performing 
well.
    We are installing a dual-band radar on the carrier which 
that development, the intent of the CVN 78 was, it would 
leverage the development of the dual-band radar from the DDG 
1000 program, but when the DDG 1000 program was truncated, and 
a part of the effort to reduce the costs on the DDG 1000, the 
dual-band radar was reduced on the 1000 to just single-band, 
multifunction radar and, therefore, the CVN 78 picked up those 
development and integration costs on that program.
    So about half of the cost growth on the carrier is 
associated with those development efforts earlier on. The--
another part of the previous adjustment to the cost on the 
carrier simply associated with inflation.
    That contract was awarded in 2008, delivers in 2015, the 
cost cap was set early on, and there was an allowance made 
for--to account for inflation and, in fact, we exercised that 
allowance in the cost cap for inflation, which then brings you 
to the last piece, which is production, which we are wrestling 
with today.
    It is too late to undo the impact associated with 
development, and we are suffering through the impacts that have 
trickled into the impacts on material procurement, so a lot of 
cost growth in production of the CVN 78 is disruption caused by 
late material.
    The shipbuilder has been turning the industrial base upside 
down to do a couple of things. One to get through all of the 
first nautical testing as required for these new systems as 
quickly as possible.
    But second is to find alternative sources where it makes 
sense to improve upon delivery to a shipyard. Those are bearing 
some fruit, but in the end, not enough to overcome the early 
cost trends.
    So that is why we have predicted, projected about 2 years 
ago, what our estimate of completion would be updated for these
impacts.
    Two years later, we are continuing to work on changing that 
trend, but there is not enough progress to change the estimate, 
and so, we have to come forward with requests for cost cap to 
relieve the associated funding to go towards completion of the 
carrier. And we have to keep the press on in terms of the 
remaining production and test activities.
    Mr. Forbes. Well, we thank you for the good work you have 
done in doing that, and the contractor. We may have to be 
talking about what kind of milestones we can just get to make 
sure we are assuring that those costs are being contained so 
that we can justify that to our other members who have to vote 
on these dollars.
    But thank you for that effort. One last question for the 
Navy. The LCS, I know both of you are familiar with that, we 
have talked about it, I think overall, the development program 
is doing well. Admiral, I understand you have got to do the 
deployment to see exactly what utilization you are going to 
have for these vessels.
    But here is the one conceptual question that I have to ask 
both of you to get on the record. We are looking at the fact 
that this is a little bit different because of the modular 
mission packages, and normally when we have a ship that is 
ready to deploy, and it goes and does what it is supposed to 
do.
    Some of those module mission packages, we are not going to 
have the complete package for probably 5 years down the road. 
And, at that time, we are going to probably have about 25 of 
the 52 vessels already intact, and if they have got a 20-year 
hull life on them we are talking about using, a sizable portion 
of that hull life before we have to fully, the modular mission 
packages, fully ready to go.
    Can you just kind of deal with that issue, and if you have 
thought through that and what we need to explain that to our 
members.
    Secretary Stackley. Yes, sir. First, I would argue that the 
modular approach to the LCS mission package is the strength of 
the program. And you are correct that the full operational 
capability associated with the three mission packages across 
the two versions of the LCS, doesn't--that full operational 
capability doesn't come until late in the FYDP.
    But the incremental approach that we have outlined for that 
capability is ensuring that as the ships are delivered to the 
fleet, that we are able to marry up the increments of the 
mission packages as the ships are ready for fleet operations.
    So for example, I described at the mine countermeasure 
mission package, IOC, currently scheduled for late 2014, we 
will work through the funding issues, to try to hold on to that 
schedule.
    But what we are going to field then, will be increment one. 
And increment one will provide a level of capability, equal to 
or greater than, what we have in the fleet today. So it gives 
us confidence that, when we get increment one out there, we can 
start to deploy mine-countermeasure-capable LCSs in the 2015 
timeframe.
    But the full capability associated with that mission 
package we will continue to follow in subsequent increments, 
and that full capability includes filling gaps that we cannot 
fill today.
    So, rather than hold the program, waiting for the full 
capability of the mission package, we are going to go ahead and 
field the first increment when we got a level of capability 
equal to or greater than what we have today, and as the follow-
on technologies are ready, we will introduce those in such a 
fashion it doesn't disrupt the platform or the mission package, 
which is the way it was
designed.
    So it is really a strength that we don't have to go in, rip 
anything out, but as the separate technologies complete their 
separate testing, they get to be integrated in with the mission 
package.
    That is the mine countermeasures and following suit on that 
is surface warfare. In fact, the Freedom is deployed today with 
the version of the surface warfare mission package, and we 
continue to improve upon that with subsequent increments, so 
she is able to deploy today, but then, by the 2017/2018 
timeframe that you refer to, she will, in fact, be further 
capable in what we are deploying today.
    And then the third mission package is the ASW [Anti-
Submarine Warfare] which probably, rightfully is--we try to 
array these in accordance with need, and that mission package 
is under development today, but we are using mature 
technologies in that case. And the issue then becomes 
integrating them onto the LCS
platform.
    Mr. Forbes. Good. One question for the Air Force and either 
both of you take this. We are concerned, as you are, with 
sequestration and its impacts. As to sequestration impacts and 
the fiscal year 2013 and fiscal year 2014 budget assumptions by 
the Department, that sequestration will somehow be undone, the 
subcommittee is concerned about the impacts of funding 
shortfalls related to high priority programs, such as, the KC-
46 refueling tanker, and the new Long Range Strike Bomber.
    How will you prioritize these programs within your Service, 
and more importantly, what impact will our national security 
incur if these critical capabilities are delayed?
    General Davis. Sir, thank you. Those two programs make up 
three of the top priority programs in the United States Air 
Force, and they comprise about 27 percent of our budget, the 
bomber, the tanker, and the F-35 [Lightning II Joint Strike 
Fighter] program.
    And so, these are clearly priorities within our budget as 
we look to meet, you know, the new defense strategy which has 
us looking about how we fly in denied areas and into anti-
access areas, notably in the Pacific.
    We were grateful for the fact that H.R. 933 [Consolidated 
and Further Continuing Appropriations Act, 2013] actually 
funded the required level we needed to protect the very 
valuable fixed-price contract on the KC-46, so we see, as 
General Allardice mentioned in his statement, that program 
going quite well.
    As we looked at the sequestration impacts to the very early 
phases of the Long Range Strike Bomber, the team was able to 
handle that 9 percent or so cut within it is development by 
kind of working around certain issues and being able to 
structure the program just a little differently in the very 
early phases.
    So they had some flexibility to preserve that. As it moves 
into some of its more important phases in the next year, so 
that flexibility for another levy somewhere out there, would 
all but be gone, so I think you can understand, that since 
those are our top three programs, those are critical that we 
protect those in the outyears.
    Mr. Forbes. And I think the programs are going well. You 
are kind enough to give us some good briefings on those, but 
can you--what can you tell us for the record if those programs 
were delayed, how would it impact our national security?
    So we can make sure they are not delayed.
    General Davis. Sir, I am going to let--I will let General 
Allardice talk about specifically the tanker, which is in his 
portfolio. Let me talk about the bombers. Every one of you who 
had mentioned something about the age of our bomber fleet was 
approaching 37-plus years.
    Our B-2 [Spirit stealth bomber], which is our newest 
airplane, is already on the verges of 30 years old. I was there 
when I saw that first airplane fly, and that just seems like 
decades ago. We have money, a lot of money, scattered through 
the POM [Program Objective Memorandum] to be able to maintain 
both--or all of the B-1 [Lancer strategic bomber], the B-52 
[Stratofortress strategic bomber], the B-2, throughout what we 
hope will be 2040 and
beyond.
    But it is money that doesn't provide a new capability. It 
really, if you will, treads water just trying to match the new 
threat that appears on the horizon every day.
    We are reacting to every threat that those bombers are 
going to have to penetrate. We are not leading the fight in 
that, if you will. We are not bringing in the new capability 
that the threat has to react to. We are just surviving 
diminishing parts. We are surviving new threat radar modes. We 
are surviving new missile technologies, and so, I don't know 
how we do that for another three decades.
    So that is why the Long Range Strike Bomber is absolutely 
critical to that.
    Mr. Forbes. And how about the tanker?
    General Allardice. Sir, thank you, and as you indicate, our 
program is going well today. As a reminder, 54 years, average 
age, today. The tanker the KC-46 will show up in 2017 to start. 
And we will field that over a number of years, and when we end 
the fielding of the KC-46, the KC-135 will be 80 years old.
    As a pilot, flown the 135, loved it to death, the first one 
I flew is the same age as I am. I hope I am alive to fly it 
when it is 80 years old. It is hard for me to comprehend, 
particularly in light, as General Davis said, a requirement to 
go into anti-access/area-denial areas.
    So delaying the program today, which is a firm fixed price, 
we believe we have a very good deal with the contractor. Any 
delays puts that at risk, drives the cost up, per unit cost, up 
to a level that I doubt we would save anything, and we would 
just be putting our force at risk.
    Mr. Forbes. I think Mr. Langevin had a final question, sir?
    Mr. Langevin. Thank you, Mr. Chairman. Secretary Stackley 
and Admiral Myers, given the importance and increasing 
complexity of cyber-related issues, as our system is getting 
increasingly complex, interconnected, and interdependent, how 
are you procuring to ensure that systems are able to function 
in warfighting environments, where our data links may be 
degraded or denied or where the networks may be under 
significant strain from cyber attacks. That is one question.
    The other question I had is, given the potential 
capabilities of unmanned, under sea vehicles promised to 
provide, will you please give us a brief update on the Navy's 
plans for these systems?
    Secretary Stackley. Yes, sir. Let me start with your second 
question, unmanned vehicles. Clearly, one of the priorities for 
the Secretary of the Navy has been to expand our employment of 
unmanned vehicles, both the surface and underwater as well as 
air.
    We have got a number of developments that are ongoing, a 
number of prototypes that are in operation and, in fact, we 
have accelerated the deployment of certain capabilities. So for 
example, we employed an underwater surveillance system, its 
acronym was PLUS [Persistent Littoral Undersea Surveillance], 
persistent long range underwater surveillance, to demonstrate 
not just the ability of technology to capture data, at sea, 
over long periods of time, but actually to employ that in an 
operationally relevant environment.
    And that has led to continued emphasis for that capability.
    Separately, I described on the discussion on the LCS 
efforts that are going into the mine countermeasure mission 
package, a central element of the MCM mission package, is the 
remote mine hunting system which is a semisubmersible unmanned 
vehicle, and that is, perhaps, our most mature surface or 
subsurface unmanned vehicle.
    But then, coming around to the submarine program, we are 
looking at large displacement UUVs [Unmanned Underwater 
Vehicle] and the ability to deploy the LDUUV [Large Diameter 
Unmanned Underwater Vehicle] with the payloads that it would 
bring to extend the reach and the capability of the submarine.
    So these are three quick snapshots. Double that number in 
terms of what is going on the air side, to bring the maturity 
to the fight in as rapid a fashion as we can through a 
combination of development and, in certain cases, we are 
leveraging urgent needs to accelerate the fielding of those 
capabilities.
    Admiral Myers. Thank you. And just to complement what 
Secretary Stackley said, and I will start with the protecting 
the infrastructure first with cyber and then finish up with our 
unmanned programs.
    Developing a cyber workforce is very important for the 
Navy. And taking that workforce and that approach into our 
ships and protecting our ships, so one example that is in our 
President's Budget 2014 submit, is the consolidated afloat 
network and enterprise services gains that is going to be on 
our next--on our ships and with our next-generation network 
ashore.
    So if this is going to reduce the number of Navy networks 
and applications and it continues to expand the inspection of 
cyber hygiene with improved results. So we think that at least 
with the training of the people and the backbone that we are 
going to have on our shifts, and the way we are approaching our 
shore establishments that, we are on the right track.
    When it comes to unmanned systems, we have a number of 
activities and, as Mr. Stackley correctly highlighted, in a 
number of different areas. I mean, it goes all the way from the 
X-47B, the UCAS [Unmanned Combat Air System] demonstration 
which goes to the USS Bush.
    She has already completed the sea trials when she was on 
the USS Harry S. Truman, and this spring, we will take it to 
the next level. We have the UCLASS program which is by fiscal 
year 2020. We are going to have enhanced reach and persistence 
that will come off of our interior strike groups, and Mr. 
Stackley already highlighted undersea, the large diameter UUV, 
what we are doing there.
    So we continue across the spectrum to advance our unmanned 
systems.
    Mr. Langevin. Thank you for your time----
    Mr. Forbes. Gentlemen, thank you so much for your time 
today. As we mentioned at the outset, this is the transcript 
that we have to use to do our portion of the defense 
authorization markup, so it is very crucial to us, and we thank 
you for your time. And as I said at the beginning, I want to 
take just a moment now and Admiral Myers and Secretary 
Stackley, I want to begin with you.
    Is there anything that you believe we have mischaracterized 
today or any question that you didn't to fully respond to, or 
is there something that you think is important to get on the 
record that we need to have on there before we do the markup.
    And Admiral, we will start with you.
    Admiral Myers. Well, thank you, Chairman. There were a 
couple of questions that were addressed to both Secretary 
Stackley and myself, and Secretary Stackley did a marvelous job 
of responding, but I also wanted to make sure that, as you went 
to the next question, that I had a chance to----
    Mr. Forbes. Sure.
    Admiral Myers [continuing]. Since it was addressed to both 
of us. The first one has to do with the LCS and the mission 
packages, and I concur with everything Secretary Stackley said, 
but I just want to reinforce that, the Navy feels like we have 
LCS in the mission package procurement and development right.
    When you look at the three different mission packages, the 
surface, the antisubmarine and combined countermeasure mission 
packages, they each have an initial operations or operable date 
that we intend to field them in the fleet. And with the surface 
package, that is in fiscal year 2014, we intend to procure 24 
of those.
    With the ASW package, that is going to IOC in 2016, with 
16--and eventually we will have 16 packages and then with the 
mine countermeasure, it is again in fiscal year 2014, with 24 
packages and is a program objective.
    Now just looking at the MCM packages, again, like Secretary 
Stackley said, this is an improvement over what we have today. 
So we already--we procured four MCM packages in the increment 
one. Two of them have been delivered, and we are expecting the 
other two later this year.
    This improvement will be succeeded as we develop increased 
capability that we can modularize and put in eventual increment 
two, increment three and increment four in the future, so we 
will have more and more capable MCM mission packages on our 
Littoral Combat Ships.
    When you look at the procurement rate of the ships and the 
way that we are developing these packages, we think we have it 
about right.
    Mr. Forbes. Thank you, Admiral. Mr. Secretary, thank you 
again, and anything----
    Secretary Stackley. Sir, I just want to first thank you for 
your support, the committee's support throughout the past 
rather difficult budget year. I mean, not too long ago we were 
staring at the prospects of a yearlong continuing resolution, 
and thankfully, that is behind us.
    And as we work through the impact associated with 
sequestration, you have our commitment to work closely with 
your staff because, realistically, our adjustments associated 
with sequestration, will directly affect your deliberations on 
the 2014 budget, and we both need to keep those closely coupled 
so that we end up on the backside with the right results.
    Your questions regarding what has happened to the 
projection of the topline over the next decade, we will get 
back to you on that. But the specific question regarding 
whether or not the Services have raised their hand to say we 
can't get there from here.
    As you well know, we do balance requirements and budget, 
and one of the things that we have got do under all 
circumstances is articulate what impacts are and what the risks 
are. And that is what we attempt to do year in, year out, as 
the budget cycle turns, first inside the building and then as 
the budget comes over the Hill with the committees, so that you 
all can do your job, not just in terms of oversight, but just 
like your placard states, just like the Constitution states to 
provide and maintain a Navy, you need those insights with 
regards to what is the impact on national security at this 
budget level, with this program that you have brought forward 
and that is our commitment to you.
    Mr. Forbes. Mr. Secretary, we thank you.
    Nobody knows the long hours all of you pull outside of 
these hearings and we appreciate them and respect you all for 
it and want to work closely with you on that.
    Admiral--I am sorry?
    Admiral Myers. Is this an opportunity for closing or?
    Mr. Forbes. I tell you what let----
    Admiral Myers. Or are you going----
    Mr. Forbes. No, you go right ahead and do that as part of 
this as we go down the line, so Admiral----
    Admiral Myers. Okay, I want to make sure I didn't miss an
opportunity.
    Mr. Forbes. No, no, this is yours.
    Admiral Myers. Okay, well thanks.
    I want to thank Congress for the fiscal year 2013 National 
Defense Authorization Act and the 2013 Defense Appropriations 
Bill.
    Based on our strategies and policies, we are using these 
funds to pay our civilian personnel, must-pay bills, reconcile 
our fiscal year 2013 readiness and sustain the operations and 
maintain those ships and airplanes that are priority for forces 
that are going to deploy for fiscal year 2013 for the rest of 
the year and prepare for the fiscal year 2014 Global Forces 
Management Allocation Plan, the GFMAP.
    We are also using those funds to restore critical base 
operations and renovations. Now, we are still working through 
the impacts of fiscal year 2013 sequestration and we know that 
sequestration is going to impact our fleet and bases in a way 
that is going to make them less ready than we planned for.
    So the funding that has impacted us across the Navy has 
been about 8 percent. This will likely result, when you look at 
the procurement side, in fewer weapons and aircraft and it is 
going to increase our ship construction costs and manifest 
itself in time to complete or later initial operating dates.
    I ask for your support for the fiscal year 2014 budget 
request and thank you for the opportunity to testify on behalf 
of the 613,000 Navy sailors and civilians operating around the 
world.
    Thank you.
    Mr. Forbes. Thank you, Admiral.
    Mr. Secretary, anything else that you have?
    General, you have anchored both of these two groups today. 
We thank you for the great job the Marine Corps always does. 
You are always great leaders and you have done such an 
admirable job for us for so many years, thank you for being 
here.
    Same question to you, anything we need to get on the record 
for the Marine Corps that you think is important as we go into 
this markup?
    General Mills. Mr. Chairman, just let me add to the thanks 
on behalf of all your marines for the support that you give and 
the support the entire committee gives to what the Marines do 
today and what we are--have to be doing in the future.
    And just once again, to reemphasize the criticality of the 
ACV program to us and to our core competencies and to the 
effort that we are putting into it to ensure that we meet the 
affordability options but also to maintain that capability for 
this Nation in a time of crisis.
    Mr. Forbes. Thank you. Thank you.
    General Mills. Thank you for the opportunity.
    Mr. Forbes. It is important that we get that on the record 
so we can make sure we are letting our members know that.
    General Davis, once again, thank you and General Allardice 
for all; you have done. My question to you, the same thing, is 
there anything we mischaracterized today that you want to 
correct or any questions that we left out that you think is 
important to say and this is your time to get it on the record.
    General Davis. Sir, just a couple of things.
    I want to say first of all, you personally have reached out 
to many of us to ask our inputs on some situations that are 
going on and I want to thank you for that and the committee's 
support as been mentioned here today. That kind of dialogue is 
invaluable and as Secretary Stackley mentioned, we don't get 
through 2014, 2015 and 2016 and out unless we can continue that 
open dialogue with you and your committee and I appreciate that 
opportunity.
    We will get back to you as directed on these funding 
issues. The only thing I will add is that in the Air Force, we 
have seen that as we have the ability to use the expert airmen 
we have to try to build a structure to meet whatever number we 
are given, we believe we have the capability to manage a lot. 
It is when that capability to shape our force structure with 
the consent and advice of Congress gets taken out of our hands, 
we have an issue and so, I--we need to come back to you with 
how we have dealt with and how our leadership has answered 
that.
    I also want to thank you through the questions and through 
the answers the very intricate and detailed and exquisite 
master class I had on shipbuilding here today and it gives me 
great confidence that as we expand our CONOPS [concept of 
operations] with the Navy and the Marine Corps and the other 
Services on air-sea battle that we are going to have some great 
and capable partners as we go through this.
    I do want to mention though that United States Air Force 
has the daunting requirement to be able to move anything around 
the world at any time as General Allardice mentioned and in 
addition to be able to strike any spot on the world at any time 
and we do that through the great support aircraft we have, 
through the mobility aircraft tankers and also through the 
long-range bombers that are a very key element of power 
projection which did not get much notice here today.
    And I want to mention the fact that we struggle with 
keeping that fleet, as you had noted a couple of times, viable 
as parts of that fleet will reach 80 years old or more before 
it is replaced, we are worried about what the outyear numbers 
of our budgets will do to that and we are going to do 
everything we can to continue to modernize not only the B-2 but 
the B-1 and the B-52.
    We have significant amounts of our Air Force TOA [Table of 
Allowance] going into our budgets throughout the FYDP. And as 
you mentioned, the Long Range Strike Bomber has about $380 
million this year and about $8.8 billion across the FYDP. We 
are putting in excess of around $500 million in the B-52 just 
to be able to bring it into the 20th century so to speak with 
digital weapons as well as data links that can command it and 
control it in any spot of the globe beyond line of sight and 
that is something that is well overdue for that venerable 
platform.
    Even the B-1, which has proven to be a quite capable, even 
close air support airframe over in Afghanistan which will now 
turn its eyes, if you will, further west, is going to have 
about $608 million put into it over the FYDP to be able to 
bring integrated capabilities to and including data links and 
improved situation for the pilots.
    But the B-2 again, as I said, just to be able to get it to 
match the threat across the FYDP is going to require about $5 
billion. That will just bring the capabilities so it can 
recognize the threats that exist out in the denied and anti-
access areas. It will give it some capability to communicate 
back and it will give it better capability to receive nuclear 
command and control messages and that is going to be important.
    But as I look at our bomber fleet, we have to remember 
that, again, we put that fleet any place in the world at any 
time and it probably would be worth imagining what went through 
the minds of the North Koreans as those airplanes were over 
their country and they couldn't do a dadgum thing about it.
    And so, that is why there is so much of the Air Force 
budget going into these airplanes. But I say again, all we have 
been able to do is react to what the threat is and as a student 
of air power and of having been involved in this situation, the 
last thing you want to be as an airman is predictable because 
that makes you just a target.
    And so, that brings us back to the long range strike bomber 
which constantly receives questions about why another bomber if 
these airplanes are going to be around for 40-plus years? That 
airplane is going to be the beneficiary of 20-plus years of 
technology development on other airframes and other classified 
programs and avionics that exist on F-22s [Raptor fighter jet] 
and F-35s. And that will get us to these areas of the world 
where we can't necessarily survive for lengthy periods of time 
today. It will make us be the one that is driving the threat 
reaction, not driving our budget to fit whatever is going on in 
that part of the world.
    So I appreciate the support your committee's giving for 
that. I do see that as being a very key cornerstone of the 
United States Air Force in the future since it is our core 
mission to strike anywhere in the world at any time. So I 
appreciate the support for that.
    And I thank you for the chance to get in a few comments.
    Mr. Forbes. General, I thank you for those.
    And one of the things I want you to know too is how much we 
respect your Department, it is ability to give us a lot of 
these detailed questions that we have been doing on 
shipbuilding, we have been doing with you guys but y'all been 
giving it to us in classified settings, you know. But we 
appreciate that.
    The second thing is if anything history has taught us in 
the last few years, it is so important to have partnerships 
when we see these budget cuts and the sequestration, we can 
scream about it and yell about it but unless we hear you guys 
coming in here giving us that picture to give to these 
policymakers, we will continue to see these lines. That is why 
we push so hard to get those pictures of what those risks 
really are so that we can paint them.
    But thank you for the great work that the Air Force is 
doing and that you personally do.
    General Allardice. Thank you, Chairman, I am honored.
    One point of clarification to follow up with Congressman 
Runyan that the--one of the points with working with the CRAF 
as we consider legislation or policy is to maintain decision 
space for the combatant commander. We don't want to put that at 
risk and that is really a point to reinforce.
    Thank you.
    I really appreciate my brother's articulation about holding 
the target at risk anywhere in the world. Halfway around the 
world is about 12,500 miles; that is, for the average person, 
that is like flying coast to coast in the United States four 
times nonstop. That is really hard to do. When we put a B-2 out 
to fly over Korea and say hey take off out of the United States 
and from the United States and go perform that mission. The 
capability that brings to bear is a pretty impressive 
capability.
    Behind the scenes there are at least four air refuelings 
one way. In order to execute that, we have to have an en-route 
structure, something we don't hear very much about, little 
parts around the world where we can place our tanker force so 
that we can deliver that capability and then we also have in 
the airlift business our contingency response force which are 
the men and women that go right after and air--seizure to allow 
us to accelerate the flow of the logistics movement.
    My point here is that as we draw down and we start to 
reposture our force because of the new strategy, something we 
have to really be attuned to is that in order to hold targets 
at risk anywhere in the world, we have to have a balanced force 
throughout the world in order to be able to fly 12,500 miles 
unrefueled to either deliver a bomb or a hope package.
    Thank you for your time, sir.
    Mr. Forbes. General Allardice, we thank you for your 
service and let me just tell you, we don't want you to be 
predictable and we want you to be cutting-edge, we don't want 
to lie on our laurels and the other thing we all want to be 
committed to making sure of is that our budgets are not driving 
our strategy but our strategy is driving our budget and we all 
work together, we can get that as a nation.
    And with that, I thank you all and we are adjourned.
    [Whereupon, at 12:19 p.m., the subcommittee was adjourned.]



=======================================================================


                            A P P E N D I X

                             April 24, 2013

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 24, 2013

=======================================================================


                   Statement of Hon. J. Randy Forbes

     Chairman, House Subcommittee on Seapower and Projection Forces

                               Hearing on

               Oversight of U.S. Naval and U.S. Air Force

              Acquisition Programs in the Fiscal Year 2014

             National Defense Authorization Budget Request

                             April 24, 2013

    I want to welcome all our members and our distinguished 
panel of experts to today's hearing that will focus on the 
Administration's Fiscal Year 2014 budget request.
    In the decade ahead I believe we will increasingly lean on 
our Seapower and Projection forces to underpin our national 
security strategy. Our naval forces are deployed around the 
world, protecting the world's sea lanes and operating forward 
to deter conflict. Our projection forces are uniquely ready to 
support a wide range of mobility, strike, and strategic 
deterrence missions around the globe.
    While I am pleased at the capabilities provided by our 
forces today, the long-term outlook of our defense posture is 
being challenged. Naval forces embarked on Carrier Strike 
Groups and Amphibious Readiness Groups routinely deploy 7 to 8 
months. Because of the Navy's sustained surge, our nuclear 
aircraft carriers are depleting their nuclear reactor 
propulsion units at accelerating rates. Our bomber fleet 
averages 37 years old and our venerable tanker fleet averages 
an even older 48 years.
    While we are meeting the minimum requirements of our ever-
retreating national strategy, it is painfully obvious that our 
future readiness is being leveraged to pay for our current 
requirements. The most recent example of the Administration's 
direction is the 30-year shipbuilding plan that was partially 
submitted on Monday. The Administration once again proposes the 
early retirement of seven cruisers and two amphibious ships in 
fiscal year 2015, well before the end of their service lives. 
With 31 ships being retired over just the next 2 years, we are 
headed towards a fleet size of 270 battle force ships by FY15. 
Decline is a choice, and I believe this new plan willingly 
chooses to continue the slow, painful decline of robust 
American Seapower.
    The plan also includes a significant increase to the 
overall ship construction budget to accommodate the Ohio class 
ballistic missile submarine replacement. At over $5 billion, 
these strategic investments in our nuclear triad are essential. 
I remain concerned that during the procurement and construction 
of the Ohio class replacement the shipbuilding budget will 
demand an average of $19 billion per year. To fund both this 
new boat and the battle force it will take either a substantial 
increase in the shipbuilding account or an effort to fund the 
Ohio class replacement from outside this account. I look 
forward to continuing to work with the Department and the Navy 
to address this funding shortfall.
    During the Navy posture hearing earlier this month, 
military leaders indicated that they were pleased at the 
investment in the ship construction accounts and highlighted 
the dearth of ships in construction when they took office. To 
arrest this decline, this Administration embraced a plan that 
includes an aggressive strategy to build a moderately capable 
surface combatant called the Littoral Combat Ship that adds 
over 50 ships over the term of the plan. But unfortunately, the 
mission modules that are integral to support this 20-year 
seaframe are still in the research and development, 
complicating the Navy's ability to respond to basic mine 
countermeasure missions and antisubmarine missions. Just as the 
fleet is shrinking from the retirement and procurement of less 
major surface combatants and amphibious ships, we are filling 
these shortfalls with smaller surface combatants and support 
vessels. We need to take steps to arrest the decline of our 
battle force fleet.
    As to the Air Force projection forces, I am pleased that we 
may be initiating the semblance of a credible recapitalization 
plan. With the support of an investment in the KC-46 tanker 
program and strategic emphasis on the Long Range Strike Bomber, 
I believe that the Air Force is on the right path with the 
right platforms for our Nation's future. I look forward to 
supporting these continued investments in our mobility and 
projection forces capabilities.
    As to the Marine Corps, I understand the Amphibious Combat 
Vehicle is the Marine Corps top priority for ground force 
modernization and the Marines have completed the required 
analysis of alternatives. We need to get this program right for 
the future of the Marine Corps and I look forward to receiving 
an update on this critical program.
    I would be remiss if I also did not recognize the Navy in 
providing a credible long-term acquisition strategy that uses 
block-buy and multiyear procurements to secure steep reductions 
in overall naval pricing. Not only is this a good strategy for 
our Nation's taxpayers, it provides the long-term surety to our 
industrial base that will allow them to make critical 
investments for their long-term health.
    My friends, we are at a strategic inflection point in terms 
of our defense policy. Concurrent with the new strategy being 
contemplated by this Administration, my fear is that the 
overall capabilities of our military will continue to atrophy 
and our inability to be able to operate forward and project 
power will embolden regional instability. In the end, further 
defense reductions will be paid for in the lives of our service 
members. I refuse to accept this premise and will do everything 
in my power to arrest further decline by modernizing and 
growing our capabilities.
    Joining us today to discuss the fiscal year 2014 budget 
request are five distinguished and patriot gentlemen:
        <bullet> LHonorable Sean Stackley, Assistant Secretary 
        of the Navy for Research, Development, and Acquisition;
        <bullet> LVice Admiral Allen G. Myers, USN, Deputy 
        Chief Naval Operations for Integration of Capabilities 
        and Resources;
        <bullet> LLieutenant General Richard P. Mills, USMC, 
        Deputy Commander for Combat Development and 
        Integration;
        <bullet> LLieutenant General Charles Davis, USAF, 
        Military Deputy, Office of the Assistant Secretary of 
        the Air Force for Acquisition; and
        <bullet> LLieutenant General Robert R. Allardice, USAF, 
        Vice Commander of the Air Mobility Command.
    Gentlemen, thank you all for being here. 
    [GRAPHIC] [TIFF OMITTED] 80764.001
    
    [GRAPHIC] [TIFF OMITTED] 80764.002
    
    [GRAPHIC] [TIFF OMITTED] 80764.003
    
    [GRAPHIC] [TIFF OMITTED] 80764.004
    
    [GRAPHIC] [TIFF OMITTED] 80764.005
    
    [GRAPHIC] [TIFF OMITTED] 80764.006
    
    [GRAPHIC] [TIFF OMITTED] 80764.007
    
    [GRAPHIC] [TIFF OMITTED] 80764.008
    
    [GRAPHIC] [TIFF OMITTED] 80764.009
    
    [GRAPHIC] [TIFF OMITTED] 80764.010
    
    [GRAPHIC] [TIFF OMITTED] 80764.011
    
    [GRAPHIC] [TIFF OMITTED] 80764.012
    
    [GRAPHIC] [TIFF OMITTED] 80764.013
    
    [GRAPHIC] [TIFF OMITTED] 80764.014
    
    [GRAPHIC] [TIFF OMITTED] 80764.015
    
    [GRAPHIC] [TIFF OMITTED] 80764.016
    
    [GRAPHIC] [TIFF OMITTED] 80764.017
    
    [GRAPHIC] [TIFF OMITTED] 80764.018
    
    [GRAPHIC] [TIFF OMITTED] 80764.019
    
    [GRAPHIC] [TIFF OMITTED] 80764.020
    
    [GRAPHIC] [TIFF OMITTED] 80764.021
    
    [GRAPHIC] [TIFF OMITTED] 80764.022
    
    [GRAPHIC] [TIFF OMITTED] 80764.023
    
    [GRAPHIC] [TIFF OMITTED] 80764.024
    
    [GRAPHIC] [TIFF OMITTED] 80764.025
    
    [GRAPHIC] [TIFF OMITTED] 80764.026
    
    [GRAPHIC] [TIFF OMITTED] 80764.027
    
    [GRAPHIC] [TIFF OMITTED] 80764.028
    
    [GRAPHIC] [TIFF OMITTED] 80764.029
    
    [GRAPHIC] [TIFF OMITTED] 80764.030
    
    [GRAPHIC] [TIFF OMITTED] 80764.031
    
    [GRAPHIC] [TIFF OMITTED] 80764.032
    
    [GRAPHIC] [TIFF OMITTED] 80764.033
    
    [GRAPHIC] [TIFF OMITTED] 80764.034
    
    [GRAPHIC] [TIFF OMITTED] 80764.035
    
    [GRAPHIC] [TIFF OMITTED] 80764.036
    
    [GRAPHIC] [TIFF OMITTED] 80764.037
    
    [GRAPHIC] [TIFF OMITTED] 80764.038
    
    [GRAPHIC] [TIFF OMITTED] 80764.039
    
    [GRAPHIC] [TIFF OMITTED] 80764.040
    
    [GRAPHIC] [TIFF OMITTED] 80764.041
    
    [GRAPHIC] [TIFF OMITTED] 80764.042
    
    [GRAPHIC] [TIFF OMITTED] 80764.043
    
    [GRAPHIC] [TIFF OMITTED] 80764.044
    
    [GRAPHIC] [TIFF OMITTED] 80764.045
    
    [GRAPHIC] [TIFF OMITTED] 80764.046
    
    [GRAPHIC] [TIFF OMITTED] 80764.047
    
    [GRAPHIC] [TIFF OMITTED] 80764.048
    
    [GRAPHIC] [TIFF OMITTED] 80764.049
    
    [GRAPHIC] [TIFF OMITTED] 80764.050
    
    [GRAPHIC] [TIFF OMITTED] 80764.051
    
    [GRAPHIC] [TIFF OMITTED] 80764.052
    
    [GRAPHIC] [TIFF OMITTED] 80764.053
    
    [GRAPHIC] [TIFF OMITTED] 80764.054
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 24, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 80764.056
    
    [GRAPHIC] [TIFF OMITTED] 80764.057
    
    [GRAPHIC] [TIFF OMITTED] 80764.058
    
    [GRAPHIC] [TIFF OMITTED] 80764.059
    
    [GRAPHIC] [TIFF OMITTED] 80764.060
    
    [GRAPHIC] [TIFF OMITTED] 80764.061
    
    [GRAPHIC] [TIFF OMITTED] 80764.055
    



=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 24, 2013

=======================================================================


             RESPONSES TO QUESTIONS SUBMITTED BY MR. FORBES

    Secretary Stackley. The Budget Control Act (BCA) of 2011 
established caps for discretionary spending and reduced funding using 
two methods.
    The first method immediately reduced discretionary spending by $900 
billion across the 10-year period from FY 2012 to FY2021. This 
reduction was divided between ``security'' and ``non-security'' 
functions. The Department of Defense (DOD) share was $487 billion. This 
reduction was included in the President's Budget submission for FY 
2013.
    The second method reduces discretionary spending by $1.2 trillion 
over 10 years. The first step was the creation of a Joint Committee to 
recommend legislation to meet the reduction goal. In the event the 
Joint Committee did not propose legislation, or Congress failed to pass 
the recommended legislation, a sequester would take place to reduce 
``defense'' and ``non-defense'' discretionary spending. This reduction 
is being implemented in the FY 2013 budget, but is not included in the 
President's Budget submission for FY 2014. [See page 10.]

    Admiral Myers. To my knowledge, Navy leaders have not said ``Too 
many cuts, we shouldn't be taking this.'' We have been consistent in 
describing how senior DOD leaders conducted an assessment of the 
ability of our force to implement the new Defense Strategic Guidance 
(DSG). The Navy also assessed the capabilities, training, and the 
number and type of ships and aircraft required to execute the strategy. 
We determined the force supported by the FY13 and FY14 President's 
budget submissions was able to execute the strategy with acceptable 
risk. [See page 11.]
    Admiral Myers. The Navy submitted an unfunded requirements list for 
FY12 to the HASC that included $367 million for depot-maintenance work 
on surface ships and $317 million rotary and fixed-wing aircraft spare 
parts. An unfunded requirements list was not submitted for FY13 because 
the Navy's FY13 budget request was balanced to requirements and aligned 
with the new Defense Strategic Guidance. [See page 25.]

    General Mills. On 6 June 2013, the Secretary of Defense submitted 
the Services' unfunded priorities in a letter to Chairman McKeon; 
enclosed was a letter from General Amos to Chairman McKeon describing 
the Marine Corps' unfunded priorities. These unfunded requirements 
would enable the Marine Corps to meet FY2014 emergent, priority mission 
requirements should additional funds above those already requested in 
the FY2014 President's Budget be made available.
    The Marine Corps' unfunded requirements list is composed of four 
programs: Special Purpose Marine Air Ground Task Force--Crisis Response 
(SPMAGTF-CR), the Marine Security Guard (MSG) program, Joint Strike 
Fighter (JSF), and Marine-Forces Cyber. SPMAGTF-CR is a new, regionally 
based Marine Air Ground Task Force that provides immediate crisis 
response capability in support of Geographic Combatant Commanders, 
portions of which have already been deployed to Libya. The expansion of 
the MSG program follows the need for, and Congressional direction to 
provide, expanded support to U.S. State Department diplomatic missions 
abroad. Restoral of funding for the JSF would buy-back one F-35B 
aircraft lost as a result of sequestration in FY2013 and return the 
program to pre-sequestration procurement levels in FY2014. Additional 
funding for Marine Forces Cyber would allow the Marine Corps to fully 
support mandated requirements for U.S. Cyber Command in FY2014.
    While each of these programs is crucial to the Nation's defense, it 
must be reiterated that additional funds for these emergent FY2014 
requirements and critical capabilities cannot come at the expense of 
programs and capabilities resourced through the FY2014 President's 
Budget Submission. Any changes to that submission would adversely 
impact operational capability and readiness. [See page 11.]

    General Allardice. Chairman, during the Fiscal Year 2013 Air Force 
Posture Hearings, the Service supported the Fiscal Year 2013 
Presidential Budget which included cuts mandated by the Budget Control 
Act of 2011. This act reduced Department of Defense funding by $487 
billion over 10 years. As part of those hearings we highlighted the 
Budget Control Act cuts came with increased risk and any further cuts 
or reductions would challenge our ability to maintain readiness and 
long-term modernization requirements. [See page 11.]

    General Davis. During the FY13 AF Posture Hearings, the Service 
supported the FY13PB which included cuts mandated by the Budget Control 
Act of 2011 which reduced DOD funding by $487B over 10 years. We 
highlighted the BCA cuts came with increased risk and any further cuts 
or reductions would challenge our ability to maintain readiness and 
long-term modernization requirements. [See page 11.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. LANGEVIN
    Secretary Stackley. The development and ship integration of energy-
intensive systems such as directed energy weapons (DEW) (e.g. high-
energy lasers (HEL) and High Powered Radio Frequency (HPRF)) and 
Electromagnetic Railgun (EMRG) weapons require careful engineering 
considerations. Naval shipboard integration considerations include 
space, weight, services (e.g., power, cooling) and stability effects as 
well as impacts on the combat systems and fire control capabilities and 
interfaces. Continued technical maturity and future shipboard 
integration will be accomplished through a measured approach to the 
allocation or upgrade of shipboard services and integration of weapon 
capabilities with interfacing shipboard
systems.
    The Navy's near-term focus is on the solid state laser quick 
reaction capability (SSL-QRC) program, which will field a pre-
production combat prototype based on the Laser Weapon System (LaWS), 
and the Solid State Laser Technology Maturation (SSL-TM) program. SSL-
QRC (LaWS) is planned to deploy to the Persian Gulf in 2014 onboard the 
USS PONCE to demonstrate the ability to meet operational gaps in ship 
self defense missions against armed small boats and unmanned aerial 
vehicle threats. Long-term (beyond the current FYDP) Navy DE plans 
include the development of weaponized HPRF systems operating in the 
radio frequency spectrum and development of the Free Electron Laser 
(FEL) that has the potential for operations at much higher power 
levels.
    SSL-TM will help determine the load capacity and most effective 
means to integrate a HEL on other naval surface combatants, such as 
DDG-51 and the Littoral Combat Ship. The SSL-TM goal is to demonstrate 
a one hundred to one-hundred and fifty (100-150) kilowatt Advanced 
Development Model (ADM) prototype with much greater ranges of 
effectiveness/lethality suitable for long-term shipboard installation 
by 2016. The SSL-TM program is expected to address key technical 
challenges in ruggedized laser subsystems, optics suitable for long-
term maritime environmental exposure, and the capability to repeatedly 
propagate lethal power levels to viable targets through difficult 
maritime atmospheric conditions. The SSL-TM prototype will include 
sufficient maturity to commence an acquisition program of record.
    Concurrent with SSL-TM, The Navy will conduct an Analysis of 
Alternatives (AoA) in FY14 on the feasibility and utility of developing 
a laser-based DEW system. This analysis will provide benchmarks for 
cost, schedule and performance requirements including shipboard 
integration issues of a shipboard laser weapon system. The AoA will 
also analyze various laser weapon options and assess those options 
against current kinetic weapons for effectiveness, engagement cost, and 
system life-cycle costs. Laser options will be based on the projected 
capability of ONR's SSL-TM program and lethality data derived from the 
SSL-QRC (LaWS) deployment on USS PONCE. Based on the results of the 
AoA, Capability Development Documents will be written for systems 
selected for transition to an Acquisition program for development, 
testing and then to be installed in the Fleet.
    The Office of Naval Research (ONR) initiated the EMRG Innovative 
Naval Prototype (INP) in FY05 to explore maturation of electromagnetic 
technologies. INP Phase 1 demonstrated the technical feasibility of the 
launcher barrel life, industry manufacturing of prototypes, single-shot 
pulsed power and projectile components at a relevant energy level to 
32MJ. INP Phase 2 (FY12-FY17) will validate the repetition-rate 
capability of 10 rounds per minute for the barrel and pulsed power 
including the thermal management and auto loader. INP Phase 2 will 
produce the tactical barrel and repetition rate pulsed power matured to 
a Technical Readiness Level (TRL) of 6, consistent with size, weight 
and volume required for navy ship
applications.
    DEWs and electric weapons (e.g. EMRG) generally demand significant 
electric power from the ship's distribution system. Energy storage 
systems, including batteries, limit the impact of these large transient 
loads and provide temporary electrical power beyond the ship's 
generating capacity. These energy intensive systems also represent 
significant thermal loads that must be mitigated by the ship's cooling 
systems. Some current fleet platforms can support these electric 
weapons, but none without at least some modification. The scope of the 
modification depends on the desired muzzle energy (EMRG) or optical 
output power (HEL) and operational concept for the weapon (repetition 
rate, engagement timeline).
    As a result of its current technological progress, the potential to 
contribute to multiple warfighting gaps, and projected shift of cost 
curve in favor of U.S. defense against adversaries, our warfighting 
analysis justifies continued pursuit of EMRG. However, due to the 
current state of EMRG technology the Navy is still developing a roadmap 
for integrating EMRG for use aboard surface ship combatants. ONR, Naval 
Sea Systems Command (NAVSEA), and Office of the Chief of Naval 
Operations (OPNAV) staffs have explored potential ship and weapon 
system integration options for EMRG. As a result of these ship studies, 
Navy is focusing on the most viable options, DDG-51 and DDG-1000, due 
to their greater available space, weight and services growth margins. 
Follow-on studies will concentrate on ship configuration; required 
power and cooling; and the combat systems interface. Platform 
integration challenges include the power requirements of a 32MJ EMRG, 
as well as adequate space and/or weight allowance for batteries and 
capacitors.
    While very energy-intensive weapons systems are not currently 
mature enough for fielding today on U.S. naval combatants, continued 
progress on the technologies covered in the Naval DE Roadmap efforts 
(i.e. HEL, HPRF), and the EMRG effort are projected to result in 
capabilities that can meet future formal requirements. As part of the 
Navy's Two-Pass Six-Gate review process for major defense acquisition 
programs, a Gate 6 Configuration Steering Board (CSB) is conducted 
annually for each ship Class. Once a DEW has reached a sufficient level 
of maturity, the CSB could review the candidate technology along with 
the relevant requirements and cost information to determine if 
transitioning the capability to an acquisition program and 
incorporation into the ship class is warranted. If inclusion is 
warranted, the CSB would also determine on which hull the candidate 
technology would be incorporated. For technology that provides 
significant capability increase but also presents a significant 
installation impact to a ship, the capability benefits and costs will 
have to be weighed with installation occurring during new ship 
construction to minimize cost, if pursued. If the installation impact 
is less, the technology could be included as part of a back fit or post 
delivery installation.
    On April 29, 2013 the Commander NAVSEA signed the Naval Power 
Systems (NPS) Technology Development Roadmap (TDR). The NPS TDR aligns 
electric power system developments with warfighter needs, including 
support for DEWs and other energy-intensive weapons and sensors for 
shipboard use, to ensure that future Navy ships are capable of 
accepting the power and cooling loads of such systems as they are 
developed. This roadmap addresses both new construction integration and 
back fit of technologies into ships already in service. While specific 
in its recommendations, the NPS TDR is designed to adapt to evolving 
technical requirements from weapons and sensors system developments as 
well as changes in the Navy's 30-year shipbuilding plan. The NPS TDR 
will be updated approximately every 2 years. The NPS TDR \1\ represents 
a roadmap for these ship power technologies, how we plan to mature the 
technologies and then, how these technologies can support fielding of 
energy-intensive systems.
---------------------------------------------------------------------------
    \1\ The NPS TDR is retained in the committee files and can be 
viewed upon request.
---------------------------------------------------------------------------
    To incorporate DEWs and other high powered weapons and sensors into 
ship platforms, the NPS TDR has introduced the concept of an Energy 
Magazine to provide the interface and the required power from the 
ship's electrical system to the high powered weapons and sensors. The 
Energy Magazine will initially support near-term applications such as a 
HEL on a legacy platform with a 450VAC ship's power interface. As new 
mission systems become available for ship integration, the Energy 
Magazine can be expanded to accommodate multiple loads by providing the 
appropriate power conversion and energy storage. A standard set of load 
interface definitions for future weapons and sensors will enable a 
competitive open architecture approach for a multifunctional Energy 
Magazine.
    The Under Secretary of the Navy approved Naval Directed Energy 
Steering Group is currently drafting a near-term (2-5 years) Naval DE 
roadmap based on the approved Naval DE Vision and DE Strategy to 
establish strategic goals, guiding principles, mission area priorities, 
roles and responsibilities, and overarching objectives regarding the 
acquisition and fielding of DEWs across the Navy and Marine Corps. This 
roadmap will also address the way ahead for the platform requirements 
(power and cooling) necessary to support these systems. This roadmap is 
scheduled for approval in the fall 2013. [See page 29.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. JOHNSON
    Admiral Myers. Fifth Fleet/U.S. Naval Forces Central Command 
(NAVCENT) has a robust Continuity of Operations (COOP) program in place 
to address contingencies in Bahrain. COOP contingencies may be 
triggered by natural disaster, civil unrest, terrorist activity, 
technological degradation, belligerent action, pandemic events or any 
other condition that seriously degrades security or the ability to 
conduct operations. NAVCENT's COOP Operation Order (OPORD) is designed 
to provide the capability to continue mission essential functions 
without unacceptable interruptions during an emergency or disruption. 
The COOP OPORD includes dispersal of the NAVCENT staff with afloat and 
ashore options and capabilities. NAVCENT routinely exercises the COOP 
plan to validate and refine pre-programmed responses and identify gaps 
in planning and capabilities. [See page 22.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 24, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. The subcommittee understands that the Navy has changed 
the test program for UCAS in fiscal year 2014 and does not plan to 
conduct unmanned autonomous aerial refueling with the UCAS aircraft. 
Given this change to the UCAS test program, what kind of implications 
could this have for the follow-on UCLASS program if UCAS does not 
perform autonomous aerial refueling and what kind of risk does this add 
to the UCLASS program?
    Secretary Stackley and Admiral Myers. [The information was not 
available at the time of printing.]

    Mr. Forbes. In fiscal year 2014, the Air Force included funds to 
restart the B-52 CONECT program, but only for 28 of 76 total B-52 
aircraft. What are Air Force plans to modify the remaining fleet of 48 
B-52 aircraft in order to maintain a common configuration capability 
among the fleet as required by law contained in the fiscal years 2007 
and 2008 NDAAs?
    General Allardice and General Davis. The Fiscal Year 2014 
President's Budget reinstates the original B-52 CONECT program for a 
total of 30 B-52s. This includes modification of two test aircraft 
which were funded with prior year funds. The Air Force plans to address 
the remaining 46 aircraft (for a total of 76 aircraft) in future 
budgets.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. I'm particularly interested in how you are planning 
now to have the capability to integrate very energy-intensive weapons 
systems, such as directed energy weapons, high-power microwave and 
electronic warfare systems, and railguns into surface combatants. Can 
you provide the Navy's plan to ensure that the ships we are planning 
for and procuring now are capable of accepting the power and cooling 
loads of such systems in the future? During the hearing, you outlined a 
roadmap structure for the technologies which will show how the Navy is 
maturing the technologies and then what that means to Naval Platforms. 
To this end, please provide that roadmap.
    Secretary Stackley and Admiral Myers. The development and ship 
integration of energy-intensive systems such as directed energy weapons 
(DEW) (e.g. high-energy lasers (HEL) and High Powered Radio Frequency 
(HPRF)) and Electromagnetic Railgun (EMRG) weapons require careful 
engineering considerations. Naval shipboard integration considerations 
include space, weight, services (e.g., power, cooling) and stability 
effects as well as impacts on the combat systems and fire control 
capabilities and interfaces. Continued technical maturity and future 
shipboard integration will be accomplished through a measured approach 
to the allocation or upgrade of shipboard services and integration of 
weapon capabilities with interfacing shipboard systems.
    DEWs and electric weapons (e.g. EMRG) generally demand significant 
electric power from the ship's distribution system. Energy storage 
systems, including batteries, limit the impact of these large transient 
loads and provide temporary electrical power beyond the ship's 
generating capacity. These energy intensive systems also represent 
significant thermal loads that must be mitigated by the ship's cooling 
systems. Some current fleet platforms can support these electric 
weapons, but none without at least some modification. The scope of the 
modification depends on the desired muzzle energy (EMRG) or optical 
output power (HEL) and operational concept for the weapon (repetition 
rate, engagement timeline).
    On April 29, 2013 the Commander NAVSEA signed the Naval Power 
Systems (NPS) Technology Development Roadmap (TDR). The NPS TDR aligns 
electric power system developments with warfighter needs, including 
support for DEWs and other energy-intensive weapons and sensors for 
shipboard use, to ensure that future Navy ships are capable of 
accepting the power and cooling loads of such systems as they are 
developed. This roadmap addresses both new construction integration and 
back fit of technologies into ships already in service. While specific 
in its recommendations, the NPS TDR is designed to adapt to evolving 
technical requirements from weapons and sensors system developments as 
well as changes in the Navy's 30-year shipbuilding plan. The NPS TDR 
will be updated approximately every 2 years. The NPS TDR, attached, 
represents a roadmap for these ship power technologies, how we plan to 
mature the technologies and then, how these technologies can support 
fielding of energy-intensive systems.
    To incorporate DEWs and other high powered weapons and sensors into 
ship platforms, the NPS TDR has introduced the concept of an Energy 
Magazine to provide the interface and the required power from the 
ship's electrical system to the high powered weapons and sensors. The 
Energy Magazine will initially support near-term applications, such as 
a HEL on a legacy platform with a 450VAC ship's power interface. As new 
mission systems become available for ship integration, the Energy 
Magazine can be expanded to accommodate multiple loads by providing the 
appropriate power conversion and energy storage. A standard set of load 
interface definitions for future weapons and sensors will enable a 
competitive open architecture approach for a multifunctional Energy 
Magazine.
    While very energy-intensive weapons systems are not currently 
mature enough for fielding today on U.S. naval combatants, continued 
progress on the technologies covered in the Naval DE Roadmap efforts 
(i.e. HEL, HPRF), and the EMRG effort are projected to result in 
capabilities that can meet future formal requirements. As part of the 
Navy's Two-Pass Six-Gate review process for major defense acquisition 
programs, a Gate 6 Configuration Steering Board (CSB) is conducted 
annually for each ship Class. Once a DEW has reached a sufficient level 
of maturity, the CSB could review the candidate technology along with 
the relevant requirements and cost information to determine if 
transitioning the capability to an acquisition program and 
incorporation into the ship class is warranted. If inclusion is 
warranted, the CSB would also determine on which hull the candidate 
technology would be incorporated. For technology that provides 
significant capability increase but also presents a significant 
installation impact to a ship, the capability benefits and costs will 
have to be weighed with installation occurring during new ship 
construction to minimize cost, if pursued. If the installation impact 
is less, the technology could be included as part of a back fit or post 
delivery installation.
    The Under Secretary of the Navy approved Naval Directed Energy 
Steering Group is currently drafting a near-term (2-5 years) Naval DE 
roadmap based on the approved Naval DE Vision and DE Strategy to 
establish strategic goals, guiding principles, mission area priorities, 
roles and responsibilities, and overarching objectives regarding the 
acquisition and fielding of DEWs across the Navy and Marine Corps. This 
roadmap will also address the way ahead for the platform requirements 
(power and cooling) necessary to support these systems. This roadmap is 
scheduled for approval in the fall 2013.
    Mr. Langevin. As our systems get increasingly complex, 
interconnected, and interdependent, how are you procuring to ensure 
that systems are able to function in warfighting environments where 
datalinks may be degraded or denied, or where networks may be under 
significant strain from cyberattacks?
    Secretary Stackley and Admiral Myers. The Navy currently trains to 
operate in a communications denied environment. As adversary tactics 
and capabilities have increased in this area, the Navy has adapted its 
training and acquisition strategies to defeat them.
    The Navy incorporates realistic communications denied conditions 
into major exercises and Fleet training in order to develop 
capabilities and refine warfighting skills and tactics for sustained 
operations in a communications denied environment. Information 
Dominance (ID) training, to include cyber, Operational Security 
(OPSEC), Military Deception (MILDEC), and Command and Control in a 
Denied or Degraded Environment (C2D2E) is being integrated into the 
Fleet Training Continuum (FTC) as well as the Fleet Response Training 
Plan (FRTP).
    The Department has pursued a resourcing and acquisition strategy to 
equip the Fleet with protected communications to fight through 
adversary efforts to inhibit Fleet communications. The ability to 
operate in Anti-Access Area Denial (A2/AD) environments, where an 
adversary seeks to prevent U.S. operations in a specific geographic 
area using broad-based deterrence via electronic or other means, has 
been a pillar of the Navy Strategic Plan for the past several budget 
cycles.
    Our investments in the Consolidated Afloat Networks and Enterprise 
Services (CANES), Navy Multiband Terminal (NMT), Advanced Digital 
Networking System (ADNS) Increment III, Split IP satellite 
communications, Battle Force Tactical Network-Enhanced (BFTN(e)), Joint 
Aerial Layer Network (JALN), Advanced Tactical Data Links such as Link 
16 concurrent multinetting and Tactical Targeting Network Technology 
(TTNT)--and among others--are enhancing our abilities to operate in 
these environments today. These programs are critical to our capability 
to operate in the contested battlespace of the future as adversary 
capabilities advance and proliferate.
    Mr. Langevin. Given the potential capabilities that unmanned 
undersea vehicles promise to provide, please give us a brief update on 
the Navy's plans for these
systems.
    Secretary Stackley and Admiral Myers. Navy is producing a family of 
capable, effective, and interoperable unmanned systems that integrate 
with manned platforms to provide situational awareness and warfighting 
advantage to commanders at all levels. Unmanned Undersea Vehicles 
(UUVs) are a critical component of the future Navy Force and contribute 
to dominance in the undersea domain. Mission areas/vehicle systems 
include:

    Mine Warfare

        <bullet>  MK18 Mod2: Man-portable system based on a REMUS UUV 
        which collects change detection data to operationally detect, 
        classify, and identify bottomed, buried, and volume mines
        <bullet>  Surface Mine Countermeasure UUV/Knifefish: LCS-based 
        vehicle provides previously unavailable capability employing 
        Low Frequency Broadband (LFBB) synthetic aperture sonar for 
        operations against bottomed and buried mines in high-clutter 
        environments

    Oceanography

        <bullet>  Littoral Battlespace Sensing (LBS) Autonomous 
        Undersea Vehicle (AUV): powered vehicles characterizing ocean, 
        bathymetric, and hydrographic properties supporting undersea 
        warfare and safe navigation
        <bullet>  LBS Gliders gather wave column and ocean data 
        supporting high resolution predictive ocean and weather models

    Anti-Submarine Warfare (ASW)

        <bullet>  Persistent Littoral Undersea Surveillance (PLUS) 
        System

                <all>  Effective, adaptive and persistent surveillance 
                of multiple quiet targets over large littoral areas
                <all>  Composed of a networked system of UUVs 
                consisting of multiple REMUSs with sensors, SeaGliders, 
                and a Command and Control (C2) station. The C2 station 
                can be located anywhere around the globe. PLUS in-water 
                components can be launched and recovered from a variety 
                of vessels

    Multi-mission Future Vehicles

        <bullet>  Large Displacement UUV:

                <all>  Reconfigurable for multiple missions via modular 
                payloads
                <all>  Will leverage advanced energy sources for very 
                long (>60 day) missions and robust autonomy
                <all>  Initial increment of capability (Increment 1) 
                contributes to intelligence and anti-submarine warfare 
                missions
                <all>  Analysis of Alternatives complete to bound 
                capability selection
                <all>  Leveraging innovative prototypes for early fleet 
                utility demos begin in FY16
                <all>  Increment 1 to IOC in the 2020 timeframe. 
                Inventory objective being
                determined

                                  <all>

</pre></body></html>
